<html>
<title> - FOREST SERVICE BUDGET FOR FY 2014</title>
<body><pre>[Senate Hearing 113-26]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 113-26
 
                   FOREST SERVICE BUDGET FOR FY 2014 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

 CONSIDER THE PRESIDENT'S PROPOSED BUDGET FOR FISCAL YEAR 2014 FOR THE 
                             FOREST SERVICE

                               __________

                             APRIL 16, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-299 PDF                       WASHINGTON : 2013 



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
CHRISTOPHER A. COONS, Delaware       ROB PORTMAN, Ohio
BRIAN SCHATZ, Hawaii                 JOHN HOEVEN, North Dakota
MARTIN HEINRICH, New Mexico

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Tidwell, Hon. Tom, Chief, Forest Service, Department of 
  Agriculture....................................................     5
Vilsack, Hon. Thomas J., Secretary, Department of Agriculture....    37
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                                APPENDIX

Responses to additional questions................................    39


                   FOREST SERVICE BUDGET FOR FY 2014

                              ----------                              


                        TUESDAY, APRIL 16, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. Today the committee will consider the 
President's request for the Forest Service's fiscal year 2014 
budget. The President's budget was released last Wednesday, 
April 10. This will be the first hearing in the Congress on the 
fiscal year 2014 budget.
    I want to thank the Chief and his staff in particular for 
their being so responsive to get up here so quickly. I think 
it's understood that these are very difficult budget times, 
particularly given sequestration. The Chief knows I am 
particularly concerned about a number of the decisions made in 
this year's budget, particularly the staggering proposed 
reductions to the timber program.
    I'm of the view that there is an extraordinary opportunity 
to get the harvest up in this country, particularly built 
around sensible environmental policies and the collaborative 
work, for example, that we're seeing in Eastern Oregon in Grant 
County on the Malheur Forest.
    Today's budget, however, both in terms of the drastic 
decreases in the timber harvest that are proposed and the deep 
cuts to the hazardous fuels program with corresponding drops to 
the acres proposed to be treated, seems to me to be very 
counterproductive to the work the agency must accomplish. In my 
view, and the Chief and I have talked about this, I think it 
would be a huge blow to the cause of forest health. To me, 
healthier forests are going to equal a healthier economy.
    Now, clearly, more is going to have to be done as we 
address this issue, particularly in terms of looking at all the 
benefits of our national forests. That's what multiple use is 
all about. Clearly at the county payments hearing that we held 
recently, we stressed the need to get the timber cut up.
    This budget is not consistent with the agency's restoration 
agenda of harvesting 3 billion board feet a year. In fact, it 
proposes going in the opposite direction, reducing the harvest 
target by 420 million board feet for Fiscal Year 2014. My view 
is this will make it tough to get the timber cut up, restore 
the forests, and set back the fight against wild fires.
    So I am going to work closely with the agency and 
colleagues here to see if--as these difficult decisions are 
made-tradeoffs can be found to make sure that the critical 
programs get the funding that's necessary.
    Let me mention the question of the Secure Rural Schools 
program that was written in this committee and also to the 3 
reiterations of the committee that were written here. The 
sequestration issue is going to work a real hardship on this 
program. We are hearing that at home.
    I just came off a big round of town hall meetings in 
Eastern Oregon. It came up consistently there. What the concern 
is with respect to this morning is the Forest Service sent 
letters to the Governors about the impact of sequestration on 
the payments made under the legislation. In the letters, the 
Forest Service requested that the States send back 5.1 percent 
of Title I and Title III funds that was distributed earlier 
this year.
    The Forest Service also gave States the option to have this 
absorbed from Title II funding, the funding that supports the 
important work of the Resource Advisory Committees. I think 
it's understood for those who follow this committee that we 
consider these Resource Advisory Committees really part of the 
bright light in terms of forestry policy, particularly because 
it cements the collaborative work that is really the 
prerequisite to permanent progress.
    So what we've got with these cuts from sequestration is 
communities that are already on the edge of bankruptcy, 
desperate to do more work in the woods. Get people back to work 
in the woods. Get the forest harvest up. What they want is some 
predictability from the Federal Government.
    In response, the Forest Service has said not only will less 
timber be cut, but money needs to be given back. So I'm deeply 
concerned about the impacts these cuts are going to have on 
rural communities.
    What I heard last week, especially, and this came up at 
virtually every town hall meeting, were people saying what 
about the fact that the Forest Service and the Department of 
the Interior cannot even agree on the approach they're going to 
take. That seems odd, even by Washington, DC, standards. So 
we're going to have to inquire into that.
    Now I want to express my appreciation to the Administration 
for saying that Secure Rural Schools should be in the budget. 
That is certainly constructive. But we understand that we have 
to have the budget details in order to have a more thoughtful 
discussion about it.
    Let me talk briefly about wild land fire funding. Last year 
the country experienced a severe fire season with devastating 
impacts of wild land fire affecting numerous committees. It's 
something Senator Udall of Colorado cares a great deal about.
    As we know past emergency borrowing from discretionary 
accounts in Congress? rescissions from fire fighting accounts 
has left the Forest Service, once again, at risk of running out 
of fire fighting funds in the coming season. We are getting a 
sense that the coming season could be a record one. When there 
isn't enough money for fighting fires, every other program in 
the agency's budget suffers at a time, as I've indicated, when 
they are already taking a big hit.
    On the wild land fire issue, as well, I'd like to note my 
ongoing disappointment with the level of funding in the budget 
for hazardous fuels treatment and the alarm at the level of 
cuts reflected in this budget. The Healthy Forest Restoration 
Act authorized $760 million annually for hazardous fuels and 
the Administration does not come close to that level in its 
request. This budget proposes an extraordinarily large cut, 
cutting this line item by more than 30 percent.
    Year after year this work has been underfunded. It's 
absolutely key to reduce the severity of forest fires. Again, 
the budget is moving in the wrong direction.
    The result will once again be larger wild fires. 
Undoubtedly it will cost more to fight fires in the long run. 
Recent studies have confirmed that hazardous fuels treatments 
done in the right places lead to substantial reductions in both 
wild fire size and suppression cost. Once again, being penny 
wise and pound foolish takes its toll.
    We intend to explore these issues in more depth. Let me 
close with just a couple of last points.
    Many of us in this committee support full funding for the 
Collaborative Forest Landscape Restoration Program. I was an 
original co-sponsor of this program. It has been tremendously 
successful in our State. I'm glad to see the strong commitment 
made to restoration among a number of the line items in the 
budget.
    I'm also pleased to see that this year's budget request 
includes funding for new air tankers. Senator Murkowski and I 
have been very interested in this over the years. Chief, we 
have discussed the fleet of air tankers used for fire fighting 
continues to approach the end of its life span.
    It's my understanding that the Forest Service expects to 
make an announcement later this month regarding next generation 
air tanker contracts. That is good news to the committee. We 
continue to remain concerned about whether the agency is going 
to have enough planes to fight fire this summer.
    Finally, I'm pleased that the agency has included 
legislative proposals to support a number of important 
priorities including support for permanent reauthorization of 
the stewardship contracting program.
    With that, let me yield to my friend and colleague, Senator 
Murkowski for any statement she would like to make.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman and good 
morning.
    Welcome, Chief. Good to see you here.
    The Forest Service manages some 22 million acres of 
national forest lands in the Southeastern and South Central 
part of Alaska. That's more acres than the entire 52 national 
forests that are located in the Eastern and the Southern United 
States. The Tongass National Forest is 80 percent of the land 
base in Southeast. So to say that the management vision and the 
decisions made by the Forest Service have an effect on the 
health of Alaskan communities is truly an understatement.
    Chief, you and I have had plenty of opportunity to sit and 
visit. I know that you know the significance of the Tongass and 
how management of the Tongass impacts our Southeastern 
communities. Right now our communities, particularly in 
Southeast, are not healthy. In fact, they are on economic life 
support.
    I am concerned, Chief, that the vision that the 
Administration offers in this budget proposal for forest 
management looks more like one that I would expect to be 
proposed by the National Park Service than by a multiple use 
agency with vast timber resources. Management under this 
proposed budget is focused on tourism and recreation and 
ecosystem values, such as wildlife habitat. I agree, I agree, 
that these are important. But I have to remind you that the 
fundamental tenant of multiple use also includes the 
development of our natural resources. In Southeast Alaska, and 
I know in many rural communities across the West and Oregon, 
harvesting timber is still the economic life blood.
    I look forward to you giving us some assessment here as to 
how this budget will help us to continue to develop our natural 
resources and the jobs that are needed to produce them. I'm 
looking forward to your comments this morning, in particular 
responses to questions because your written testimony doesn't 
really speak to timber harvest. It does speak to the other 
uses. But again, when we talk about multiple use, it does 
include and most certainly includes the management of our 
resources.
    Now on the issue of timber production this budget proposal 
seems to disregard the very commitment that you made to get the 
cut up, was the term that you used with Senator Wyden and me, 
just a couple weeks ago when you testified before this 
committee on Secure Rural Schools. At that hearing you 
reiterated that the Forest Service would stay focused on 
meeting the 3 billion board foot timber target set for FY'14. 
You then said that you recognize the importance of increasing 
timber harvest levels to rural communities.
    This budget proposal instead proposes a timber target for 
FY'14 of 2.38 billion board feet. This is a 15 percent 
reduction from FY'13 of 2.8 billion board feet. In terms of 
timber funding, I'm not even sure what that corresponds to as I 
see that you have again proposed to change the budget structure 
to consolidate 6 key budget line items into one entitled the 
integrated resource restoration line item. The IRR, as we've 
had a discussion in previous sessions here, the IRR makes it 
more difficult to figure out how and where funding is spent. So 
perhaps you can tell me this morning what those numbers are.
    Next, the Forest Service estimates that there are 82 
million acres of the National Forest system in need of fuel 
treatments but proposes to again, substantially cut funding for 
the hazardous fuels program, as the Chairman has noted. Your 
proposed cut is 37 percent, its lowest level in the last 5 
years. This is significantly below the authorized level of $760 
million contained in the bipartisan Healthy Forest Restoration 
Act.
    So, Chief, I do hope that you can explain to us exactly 
what's going on here. I understand that budgets are tight. We 
all know that. We recognize that.
    I would suggest that instead of proposing to increase 
funding for programs like land acquisition in the budget 
proposal that the Forest Service should fund its core 
priorities. The Forest Service has its hands fully managing 
what it currently owns. I think the last thing that the service 
needs right now is more land to manage. You're simply not able 
to manage what it is that you have. So asking for more budget 
dollars to purchase more that you can't manage makes no sense.
    Managing wild fire--wild land fire accounts for nearly 43 
percent of the budget proposal. How the Forest Service 
configures its fire fighting aircraft assets and the 
modernization of the aging tanker fleet is something that we're 
all following closely within the committee. Although there are 
proposed increases in this budget for modernizing, no further 
details are provided as to how that funding would be spent.
    I do understand that the Forest Service has awarded some 
legacy air tanker contracts but not the next generation large 
air tanker contracts. I do hope that you'll be able to share 
with us this morning, today, the agency's plans for 
modernization and the timeliness for moving forward.
    Now I will also make a similar comment to what Chairman 
Wyden has mentioned with regards to the Secure Rural Schools 
and the way that the Forest Service handled the sequestration. 
For months the Forest Service was aware of the pending 
automatic spending reductions that would occur under 
sequestration. Yet it appears that the Forest Service did 
nothing to inform or prepare States, the counties or the 
boroughs, for the possibility that this program would see 
reductions.
    I hope that you can speak to that. I'm sure that you will. 
But more importantly what the status is and how we move 
forward.
    Mr. Chairman, of course, I will have a number of questions 
after we hear from the Chief. But again, very important 
discussion this morning as it relates to our forests.
    The Chairman. Thank you, Senator Murkowski. I think the 
committee is aware that you and I are very much in agreement on 
these kinds of issues.
    We have got to get the harvest up. We know we can do it in 
compliance with environmental rules. I think this is an area we 
heard about when I was up in Alaska where this committee can 
find common ground. I very much appreciate your statement.
    Chief Tidwell, welcome. Let's go to your prepared remarks 
and then you can have some questions.

STATEMENT OF TOM TIDWELL, CHIEF, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Tidwell. OK. Mr. Chairman, Ranking Member Murkowski, 
Senator Barrasso, Senator Johnson, thank you for giving me this 
opportunity to discuss the President's 2014 budget request for 
the Forest Service. I appreciate the support that this 
committee has given the Forest Service over the years. I look 
forward to continuing to work with you to be able to deliver, 
what I believe, is what Americans want from their National 
Forests.
    Now the President's budget request reflects our commitment 
to strategic investments that are needed to grow the economy 
while exercising fiscal restraint. The budget makes some very 
difficult tradeoffs between programs while focusing on, where I 
believe, we can make that economic growth, especially in rural 
America which includes supporting 450,000 jobs that come from 
the activities off of National Forests and Grasslands.
    Now I know you're going to have some concerns about the 
amounts on some of our individual budget line items. But 
overall, I believe this budget request is a good investment, 
especially when you look at 3 key objectives.
    The first is to get back on track with our accelerated 
restoration strategy to be able to get back and move forward to 
be able to treat more of that 65 to 83 million acres that need 
restoration and especially with the over 12 million that need 
timber harvest to be able to restore those lands. We're going 
to do this through increasing capacity through our requests for 
full funding for the Collaborative Forest Landscape Restoration 
Fund, through requesting permanent authorization for 
stewardship contracting, to be able to not only restore those 
lands, but to provide certainty to private--so private 
investment can occur to be able to expand the wood products 
industry.
    We want to continue to use landscape scale EISs like the 
Four Fry in Arizona to address between 750 and a million acres 
with one EIS or to do the adaptive EIS that we've done on the 
Black Hills where we did one EIS to address 248,000 acres that 
allow us to be able to go in there and address wherever the 
next insect and disease outbreak occurs without any additional 
analysis.
    We also want to expand and create new markets. That's why 
we're asking for an additional $13 million in our research 
funds that's dedicated to increasing markets for wood. It's to 
build on USDA's green building initiative, our wood energy 
program and also to continue our research and nano technology.
    The second key part of our budget deals with funding for 
fire suppression. This budget includes a level of preparedness 
that will allow us to continue our 98 percent success rate when 
we're taking initial attack. It also requests the 10 year 
average for suppression which includes $134 million increase 
from what we needed in FY'12 to be able to meet the agreement 
of the 10-year average. So $134 million had to come from other 
programs to be able to meet the 10-year average.
    It also does address the threat to wild fire in homes and 
communities by reducing hazardous fuels on 685,000 acres. Yes, 
we have reduced our request there. But we're focusing those 
funds on the wild land urban interface.
    We're also requesting an additional $50 million to help 
modernize our large air tanker fleet.
    Now the third key objective is to work through the 
America's Great Outdoors Initiative to support community based 
conservation, help Americans reconnect to the outdoors and 
provide opportunities for economic expansion to retain and 
create jobs. We're going to do this by supporting the 
recreational opportunities that not only add the quality to our 
lives, but it supports our communities through 205,000 jobs. We 
want to help Americans reconnect with the outdoors through 
increase in our youth employment authorities.
    We also request an increase in LWCF funding that reflects 
the need for conservation easements and land acquisition to 
protect critical forests and to acquire public access to make 
sure that the public can continue to enjoy their national 
forests.
    It also reduces Administrative costs. Any time we can 
eliminate an in holding on our national forests it reduces the 
cost when it comes to boundary management. Also gives us more 
flexibility to do the restoration work that needs to occur on 
these lands.
    We also want to encourage the biomass utilization and other 
renewable energy opportunities while working on our processes 
to issue oil and gas permit applications--to process oil and 
gas permit applications in our energy transmission proposals.
    We're also going to continue our focus on our operational 
efficiencies. Between FY'13 and FY'14 we're going to cut $100 
million from our fixed costs by doing a better job with 
strategic acquisition and reducing thus our overall, overhead 
costs.
    We want to continue to offset budget reductions by gaining 
efficiencies like with our NEPA and sell preparation with 
timber sales. Since 1998 funding has been reduced by $185 
million when adjusted to inflation. Staff has been reduced by 
49 percent. But during the same time we've had to reduce our 
unit costs for a million board--by a thousand board feet by 23 
percent. We want to be able to continue to do that work.
    Then the last part of our efficiencies is to continue the 
work we're doing to use science, our experience and expertise 
to reduce the actions that are ineffective when it comes to 
fire suppression. Because of that last year, even though with a 
record fire season, we reduced our costs by $377 million 
because of the techniques that we're using today, the science 
that we're using today.
    Our goal is to increase our collaborative efforts to 
encourage greater public involvement in the management of the 
national forests and grasslands. We need to maintain and 
restore healthy landscapes. We need to take care of the 
ecosystem. But we also need to support healthy, thriving 
communities and provide jobs in rural America.
    Again, thank you for the opportunity. I look forward to 
your questions.

Prepared Statement of Tom Tidwell, Chief, Forest Service, Department of 
                              Agriculture
    Mr. Chairman and Members of the Committee, thank you for inviting 
me here today to testify on the President's Budget request for the 
Forest Service for Fiscal Year (FY) 2014. I appreciate the support this 
subcommittee has shown for the Forest Service in the past, and I look 
forward to continuing to work together with Members of the Committee to 
ensure that stewardship of our Nation's forests and grasslands 
continues to meet the desires and expectations of the American people. 
I am confident that this budget will allow the Forest Service to meet 
this goal while demonstrating both fiscal restraint and efficient, 
cost-effective spending.
    Our Nation can and should take steps to make Government more 
effective and more efficient in the 21st century. The FY 2014 budget 
that the President is proposing reflects the difficult choices we need 
to make to reduce spending while investing in long-term economic growth 
and job creation. To make the strategic investments needed to grow the 
economy while exercising fiscal restraint, this budget makes difficult 
tradeoffs between programs. It also reflects efficiency and 
improvements to reduce our administrative costs. It is designed to 
appropriately fund many of the programs that matter to Americans.
Value of the Forest Service
    Our mission at the Forest Service is to sustain the health, 
diversity, and productivity of the Nation's forests and grasslands to 
meet the needs of present and future generations. The mission includes 
helping Americans use and enjoy the lands and waters that belong to 
them as citizens of the United States. The Forest Service manages a 
system of national forests and grasslands on an area almost twice the 
size of California-193 million acres in 44 States and Puerto Rico. 
These lands entrusted to our care provide some of the richest resources 
and most breathtaking scenery in the Nation, as well as drinking water 
for millions of Americans.
    As the Nation's leading forestry organization, we also serve 
Americans in other ways. The Forest Service was founded in 1905 to stop 
the degradation of watersheds and manage the lands for the benefit of 
all Americans. To that end, in addition to the National Forest System, 
agency programs support the sustainable stewardship of more than 600 
million acres of forest land across the Nation, including 423 million 
acres of private forest land, 68 million acres of State forest land, 18 
million acres of Tribal forests, and 100 million acres of urban and 
community forests.
    In addition, we maintain the largest forestry research organization 
in the world, with more than a century of discoveries in such areas as 
wood and forest products, fire behavior and management, and sustainable 
forest management. In an age of global interconnectedness, we also 
support the sustainable stewardship of forests around the world; we 
have served people in more than 80 countries, which have direct 
benefits to the American forestry economy through marketing American 
forest products and invasive species prevention.
    America's forests, grasslands, and other open spaces are integral 
to the social, ecological, and economic well-being of the Nation. The 
benefits from Forest Service programs and activities include jobs and 
economic activity, especially in rural areas where other sources of 
employment and economic growth might be few. In FY 2011, for example, 
the various activities on the National Forest System contributed over 
$36 billion to America's gross domestic product, supporting nearly 
450,000 jobs.
    The most popular uses of the national forests and grasslands are 
associated with outdoor recreation. Our increasingly diverse visitor 
population engages in activities such as camping, picnicking, 
snowmobiling, cross-country skiing, equestrian use, firewood and forest 
product gathering, all-terrain vehicle riding, skiing, snowboarding, 
hunting, fishing, hiking, wildlife viewing, driving for pleasure, and 
visiting cultural sites and visitor centers. The national forests and 
grasslands attract about 166 million visits per year, supporting about 
205,000 jobs and contributing $13.6 billion to the Nation's gross 
domestic product each year. Fifty-five percent of our visitors engage 
in a strenuous physical activity, contributing to their health and 
well-being.
    Noncommercial uses of forest and grasslands also provide vital 
benefits to the American people. For example, more than half of our 
Nation's freshwater flows from public and private forest land, and 
about 60 million Americans rely on drinking water that originates on 
the National Forest System. Forest Service land management, combined 
with Forest Service assistance to private landowners, helps protect the 
single greatest source of drinking water in the Nation.
    The Forest Service's creation of jobs and economic opportunities is 
not limited to rural areas. Through Job Corps and other programs, we 
provide training and employment for America's urban youth, and we help 
veterans transition to civilian life. Our Urban and Community Forestry 
Program has also provided jobs and career-training opportunities for 
underemployed adults and at-risk youth through activities such as tree 
care and riparian corridor restoration.
    We also engage a wide range of partners who contribute to 
investments in land management projects and activities. In FY 2012, we 
entered into more than 7,700 grants and agreements with partners who 
contributed a total of about $535 million in cash and non-cash (in-
kind) contributions. Combined with our own contribution of nearly $779 
million, the total value of these partnerships was over $1.3 billion. 
The growing value of grants and agreements demonstrates the increasing 
importance of partnerships in fulfilling the Forest Service mission.
    Forest landowners of all kinds benefit from our forest-related 
research, as does anyone who buys products made from wood. For example, 
Forest Service scientists have developed a free software application 
that helps people identify invasive plants and provides control 
recommendations. Our research and development bring all kinds of 
benefits to the American people, improving their quality of life.
    More than 50 percent of the Nation's forests-over 420 million 
acres-are privately owned. Working with the State Foresters, we help 
State forest managers and private forest landowners manage America's 
working forests sustainably. Through our Forest Health Management 
program, for example, we monitor and assess forest health conditions on 
all lands nationwide, both public and private, tracking outbreaks of 
insects and disease and providing funds for treating areas at risk.
    In February 2011, President Barack Obama launched the America's 
Great Outdoors Initiative, setting forth a comprehensive agenda for 
conservation and outdoor recreation in the 21st century. The initiative 
challenges the American people to work together to find lasting 
conservation solutions, based on the premise that protecting America's 
natural heritage is a goal shared by all. In tandem with the 
President's initiative, Secretary of Agriculture Tom Vilsack outlined 
an all-lands vision for conservation. He called for partnerships and 
collaboration to reach shared goals for restoring healthy, resilient 
forested landscapes across all landownerships nationwide.
    Our FY 2014 budget request is accordingly designed to help us work 
with partners across borders and boundaries to invest in America's 
green infrastructure at a landscape scale. Our focus on landscape-scale 
conservation dovetails with broader Administration priorities, 
including the President's America's Great Outdoors initiative, the 
Secretary's ``all-lands'' vision, and the Department of Agriculture's 
priority goal of enhancing water resources. Our goal at the Forest 
Service is to ensure the ability of our Nation's forests and grasslands 
to deliver a full range of jobs and benefits, both now and for 
generations to come.
Challenges to Conservation
    Our Nation's ability to protect its forest and grassland resources 
is now at risk due to drought, invasive species, and 
uncharacteristically severe wildfires and outbreaks of insects and 
diseases. Such stresses and disturbances are affecting America's 
forests, grasslands, and watersheds on an unprecedented scale. Twenty-
seven percent of all forest-associated plants and animals in the United 
States, a total of 4,005 species, are at risk of extinction. Habitat 
degradation is the main reason-affecting 85 percent of all imperiled 
species. Many species are also threatened by nonnative invasive 
species, which affect 49 percent of all imperiled species.
    Although biodiversity is exceptionally high on the national forests 
and grasslands, habitat degradation and invasive species remain serious 
threats. We estimate that watershed functionality is impaired or at 
risk on 48 percent of the watersheds on National Forest System lands. 
Severe outbreaks of western forest pests have affected 32 million acres 
on the national forests alone. Between 65 and 82 million acres are in 
need of fuels and forest health treatments-up to 42 percent of the 
entire National Forest System.
    Part of the problem is severe drought, resulting in extreme fire 
weather, very large fires and longer fire seasons. Since 2000, at least 
10 States have had their largest fires on record, and some have had 
their records broken more than once. In 2000, for the first time since 
the 1950s, more than seven million acres burned nationwide; and in 
2012, more than nine million acres burned.
    The spread of homes and communities into areas prone to wildfire is 
an increasing management challenge. From 2000 to 2030, we expect to see 
substantial increases in housing density on 44 million acres of private 
forest land nationwide, an area larger than North and South Carolina 
combined. More than 70,000 communities are now at risk from wildfire, 
and less than 15,000 have a community wildfire protection plan or an 
equivalent plan.
    A growing proportion of the Forest Service budget has been needed 
for fire-related activities of all kinds. In FY 1991, for example, 
fire-related activities accounted for about 13 percent of our total 
budget; by FY 2012, it was 40 percent. That has left a smaller amount 
of funding for nonfire purposes (watersheds, wildlife, recreation, and 
other benefits and services). With increasingly limited funding, we 
need to approach our work differently.
Budget Request and Focus Areas
    The FY 2014 President's Budget request is designed to meet the 
challenges we face. The President's proposed overall budget for 
discretionary funding for the Forest Service in FY 2014 is $4.9 
billion. It shifts $62 million from key programs to meet the 
requirement to fund the 10-year rolling average of fire suppression 
costs.
    In response to the challenges we face, we are focusing our efforts 
on three key areas: restoring ecosystems; strengthening communities 
while providing jobs; and managing wildland fires. In these tough 
economic times, our proposed budget balances spending on priorities in 
each of these three focus areas against measures to decrease costs. 
Through strategic partnerships, we will continue to leverage our funds 
to accomplish more work, yielding more benefits for the people we serve 
while also sustaining forest and grassland ecosystems for future 
generations.
Restoring Ecosystems
    Our approach to ecological degradation is to accelerate ecological 
restoration. The Forest Service is restoring the ability of forest and 
grassland ecosystems to resist climate-related stresses, recover from 
climate-related disturbances, and continue to deliver the values and 
benefits that Americans want and need. Reforestation, habitat 
enhancements, invasive species control, hazardous fuels treatments, and 
other measures can help to make an ecosystem more resilient and more 
capable of delivering benefits, such as protecting water supplies and 
supporting native fish and wildlife. Our budget request for FY 2014 is 
specifically designed to support integrated restoration efforts across 
the Forest Service.
    Through Integrated Resource Restoration, land managers are 
accelerating the pace of restoration and job creation, in part by using 
the Forest Service's Watershed Condition Framework to identify high-
priority watersheds for treatment. Managers use Integrated Resource 
Restoration to integrate activities such as hazardous fuels reduction, 
road decommissioning, and removal of barriers to fish passage. Outcomes 
include reducing risk from fire, insects, and diseases; maintaining 
clean drinking water for communities; and supporting more local jobs 
and economic opportunities. For example, in FY 2012 through our overall 
efforts we treated almost 2.6 million acres to sustain or restore 
watershed function and resilience. Under the pilot program, through 
restoration activities we treated almost 800,000 acres. We propose 
fully implementing Integrated Resource Restoration across the Forest 
Service in FY 2014.
    The growing need for restoration-related work and investments on 
the National Forest System is providing jobs and community benefits. 
The Collaborative Forest Landscape Restoration Program was created in 
2009 to restore high-priority forested landscapes, improve forest 
health, promote job stability, create a reliable wood supply, and 
reduce firefighting costs across the United States. After the program 
was created, the Secretary of Agriculture evaluated collaboratively 
developed project proposals, selecting 20 large-scale projects for 10-
year funding, along with three additional high-priority projects for 
funding from other sources. They support an array of restoration 
activities, including reducing hazardous fuels, restoring watershed 
function and resilience, and improving forest vegetation and wildlife 
habitat. Continued implementation of these projects is a high priority 
in our FY 2014 budget request. For example, the 23 projects under this 
program have created or maintained approximately 7,500 jobs over the 
last two years and generated almost $272 million in labor income. They 
have also reduced the danger of fire on more than 600,000 acres near 
communities and enhanced clean water supplies by remediating or 
decommissioning 6,000 miles of roads.
    The Forest Service is creating partnerships across the country to 
help protect water by reducing the risk of fire in municipal watersheds 
that provide communities with water for drinking and other uses, such 
as irrigation, fisheries, and recreation. To help leverage our funding, 
we are proposing a new program for Restoration Partnerships in FY 2014. 
The program will foster some of the most advanced public-private 
partnership initiatives in the Federal government, leveraging new 
outside resources to support the Forest Service's restoration efforts. 
Most funding under the new program will go to support cost-share 
projects that will be competed for at the national level to attract 
matching financial support from partners.
    Another Forest Service program with a restoration emphasis is 
Forest Health Management. Under the program, we conduct risk mapping 
and surveys to identify the areas at greatest risk from insects and 
disease, including invasive species such as emerald ash borer and white 
pine blister rust. In identifying the areas at greatest risk and 
deciding on how to respond, we work with the States, in part by 
utilizing the State Forest Action Plans to help inform response 
decisions.
    The Forest Service is finalizing directives for implementing the 
new National Forest System Land Management Planning Rule governing how 
land management plans are written for the national forests and 
grasslands. Half of all units on the National Forest System have plans 
that are more than 15 years old. Successful forest plan revisions are 
key to meeting the Forest Service's contemporary land management 
challenges. The new 2012 Planning Rule will help land managers focus on 
collaborative watershed restoration while promoting jobs and economic 
opportunities in rural communities.
    In concert with the President's America's Great Outdoors Initiative 
and Secretary Vilsack's all-lands vision for conservation, the Forest 
Service has launched an initiative to accelerate restoration across 
shared landscapes. The Accelerated Restoration Initiative builds on 
Integrated Resource Restoration, the Collaborative Forest Landscape 
Restoration Program, the Watershed Condition Framework, the 2012 
Planning Rule, and other restoration-related programs and initiatives 
to increase the pace of ecological restoration while creating more jobs 
in rural communities.
    The Forest Service is supporting accelerated restoration through 
our programs in Research and Development. We have seven high-priority 
research areas, including Watershed Management and Restoration, which 
is designed to support our focus on protecting and enhancing water 
resources. In our Bioenergy and Biobased Products research area, we are 
developing technology to sustainably produce woody biomass and convert 
it into liquid fuels, chemicals, and other high-value products. In 
partnership with the wood products industry, we are also developing 
science to commercialize nanocellulosic technologies to generate new 
high-value products such as durable composites and paper that is 
stronger and lighter. This will revolutionize technology to create new 
jobs and revenues and help restore America's economy through industrial 
development and expansion.
    We are also pursuing longer term strategic research. For example, 
sustainable forest management is predicated on decades of data on 
forest conditions collected through our Forest Inventory and Analysis 
program. We conduct long-term research in such areas as forest 
disturbances, the effects of climate change, fire and fuels, invasive 
species, wildlife and fish, and resource management and use to meet 
local needs. In all of our research, we are committed to delivering new 
knowledge and technologies to support sustainable forest and grassland 
management.
Strengthening Communities and Providing Jobs
    Our FY 2014 budget request emphasizes the role that communities 
play in sustaining the forests and grasslands around them and the 
benefits they provide. Working with State and local partners, we are 
focusing on landscape-scale outcomes through cross-boundary actions 
including forestry projects identified through the State forest Action 
Plans. Accordingly, we propose building on our State and Private 
Forestry Deputy Area Redesign initiative through a new program called 
Landscape Scale Restoration. Our new program will capitalize on the 
State Forest Action Plans to target the forested areas most in need of 
restoration treatments while leveraging partner funds.
    We also work with the States through our Forest Legacy Program to 
identify forests critical for wildlife habitat and rural jobs. Through 
the program, we provide working forests with permanent protection by 
purchasing conservation easements from willing private landowners.
    In a similar vein, and supporting the President's America's Great 
Outdoors initiative, our Land Acquisition program is designed to 
protect critical ecosystems and prevent habitat fragmentation by 
acquiring inholdings on the National Forest System and other lands 
where we can improve public access. We are working in collaboration 
with the Department of the Interior to leverage our joint investments 
by coordinating our efforts to protect intact, functioning ecosystems 
across entire landscapes. We propose transferring $177 million in 
discretionary and mandatory funding from the Land and Water 
Conservation Fund to support these goals.
    The Forest Service also engages urban communities in protecting and 
restoring America's 100 million acres of urban and community forests. 
For example, we are working with 10 other Federal agencies in the Urban 
Waters Federal Partnership, designed to restore watersheds in urban 
areas. Through our Urban and Community Forestry program, we are 
benefiting communities by helping them to plant trees, especially 
through demonstration projects. Through our Conservation Education 
programs, we are engaging millions of children and their families in 
outdoor experiences.
    In addition, we are helping communities acquire local landscapes 
for public recreation and watershed benefits through our Community 
Forestry and Open Space program. Our goal is to help create a Nation of 
citizen stewards committed to restoring the forests around them to 
health.
    Our community focus supports the President's America's Great 
Outdoors initiative to achieve landscape-scale restoration objectives, 
connect more people to the outdoors, and support opportunities for 
outdoor recreation while providing jobs and income for rural 
communities. Building on existing partnerships, establishing a 21st 
century Conservation Corps will help us to increase the number of work 
and training opportunities for young people and veterans through high-
priority conservation and restoration work on public lands. To engage 
communities in conserving the lands around them, the Forest Service is 
building public-private partnerships that leverage new resources to 
support the Forest Service's restoration goals. Our new Restoration 
Partnerships program features national competitive grants to support 
local restoration projects, with matching funds from partners.
    We are also building public-private partnerships through our 
Sustainable Recreation Framework. Many economic opportunities and other 
community benefits generated on the national forests and grasslands are 
associated with outdoor recreation. Through the Sustainable Recreation 
Framework, we are engaging communities to protect and increase 
recreational access as well as jobs, benefits, and opportunities 
associated with outdoor recreation.
    Our associated Trails program designates trails for multiple uses, 
consistent with our travel management rule, while building partnerships 
in trail stewardship. Our Roads program is designed to maintain forest 
roads and bridges to protect public safety and water quality while 
meeting access needs for both resource stewardship and the recreating 
public. Our Facilities program promotes the safe and energy-efficient 
use of agency infrastructure while emphasizing cost-effectiveness and a 
smaller environmental footprint through the use of green building 
techniques and materials.
Managing Wildland Fires
    Our restoration efforts are partly in response to growing fire 
season severity, one of the greatest challenges facing the Forest 
Service. We continue to suppress in initial attack at very small sizes 
up to 98 percent of the fires we fight. However, the few fires that 
escape initial attack tend to get much larger much faster. Extreme fire 
behavior has become far more common. Firefighters are largely limited 
to protecting certain points around homes and communities.
    In 2009, Congress passed the Federal Land Assistance, Management, 
and Enhancement (FLAME) Act, calling on Federal land managers to 
develop a joint wildland fire management strategy. Working with the 
Department of the Interior, the Forest Service took the opportunity to 
involve the entire wildland fire community in developing a joint long-
term National Cohesive Wildland Fire Management Strategy.
    This strategy is the product of a collaborative effort between 
wildland fire organizations, land managers, and policy making officials 
representing Federal, State and local governments, Tribal interests, 
and nongovernmental organizations that builds on the successes of the 
National Fire Plan and other foundational documents. Phase I was 
completed in 2011 and outlines the national strategy to address 
wildland fire issues across the Nation. Phase II was completed in 2012 
and provides a risk based framework for evaluating local, regional, and 
national alternatives for wildfire response and preparedness at a mix 
of different temporal and geographic scales.
    Our new strategy has three components:

          1. Restoring fire-adapted ecosystems.--More than a thousand 
        postfire assessments show that fuels and forest health 
        treatments are effective in reducing wildfire severity. 
        Accordingly, our fuels treatments have grown; from 2001 to 
        2011, the Forest Service treated about 27.6 million acres, an 
        area larger than Virginia. We focus our treatments on high-
        priority areas in the wildland/urban interface, particularly 
        near communities that are taking steps to become safer from 
        wildfire, such as adopting the national Firewise program or 
        developing community wildfire protection plans.

          2. Building fire-adapted human communities.--With more than 
        70,000 communities at risk from wildfire, the Forest Service is 
        working through cross-jurisdictional partnerships to help 
        communities become safer from wildfires, for example by 
        developing community wildfire protection plans. Through the 
        Firewise program, the number of designated Firewise 
        communities-communities able to survive a wildfire without 
        outside intervention-rose from 400 in 2008 to more than 700 in 
        2012.

          3. Responding appropriately to wildfire.--Most of America's 
        landscapes are adapted to fire; wildland fire plays a natural 
        and beneficial role in many forest types. Where suppression is 
        needed to protect homes and property, we focus on deploying the 
        right resources in the right place at the right time. Using 
        decision support tools, fire managers are making risk-based 
        assessments to decide when and where to suppress a fire-and 
        when and where to use fire to achieve management goals for 
        long-term ecosystem health and resilience.

    Hazardous fuels reduction is an important part of protecting 
communities and infrastructure in the wildland/urban interface, and the 
materials removed can often be utilized as biofuels. Our Hazardous 
Fuels program therefore supports grants and other forms of assistance 
for wood-to-energy initiatives. We fund business plans and feasibility 
studies that help make a project more competitive for other sources of 
funding; we provide technical assistance to support project development 
or improve air quality, and we help develop financially viable 
approaches for building and sustaining facilities that convert wood to 
energy.
    In FY 2014, the Forest Service will work with municipal water 
providers and electrical service utilities to leverage our funds for 
fuels and forest health treatments. For example, our new Restoration 
Partnerships program will support public-private partnerships for 
investing in projects to protect water supplies on the Colorado Front 
Range and elsewhere. Our Hazardous Fuels program complements activities 
conducted through Integrated Resource Restoration and the Collaborative 
Forest Landscape Restoration Program to reduce fuels, protect 
communities, and restore forested landscapes. Contracted services for 
fuels reduction provides jobs, as do the forest products and woody 
biomass utilization activities that result from fuels reduction and 
removal.
    Our budget request for FY 2014, taking the Suppression and FLAME 
line items together, fully covers the 10-year rolling average of annual 
amounts spent on suppression. Taken together with the Preparedness line 
item, our budget request reflects our emphasis on assessing strategic 
risks and improving operational decision-making for responding to 
wildland fires, including using fire, where appropriate, for resource 
benefits. Our efforts are expected to result in more effective and 
efficient use of Forest Service resources as well as the resources of 
our partners.
    Airtankers are a critical part of an appropriate response to 
wildfire, but the Forest Service's fleet of large airtankers is old, 
with an average age of more than 50 years. The cost of maintaining them 
is growing, as are the risks associated with using them. The Forest 
Service is implementing a Large Airtanker Modernization Strategy to 
replace our aging fleet with next-generation airtankers. Our FY 2014 
budget request includes $50 million to pay for the increased costs of 
modernizing the firefighting airtanker fleet. This is in addition to 
the $24 million requested in the FY 2013 budget for a total of $74 
million proposed over the last two years to further enhance the 
agency's ability to fight wildland fire.
Cost Savings
    Since 2011, the Forest Service has conducted more than a thousand 
postfire assessments in areas where wildfires burned into previously 
treated sites. In 94 percent of the cases, our fuels and forest health 
treatments were determined to have changed fire behavior and/or helped 
firefighters control the fire.

    The Forest Service is also taking steps in other areas to cut our 
operating costs. For example:

  <bullet> Taking advantage of new technologies, we have streamlined 
        and centralized our financial, information technology, and 
        human resources operations to gain efficiencies and reduce 
        costs. We will continue to work together with other USDA 
        agencies under the Blueprint for Stronger Services to develop 
        strategies for key business areas to provide efficiencies.
  <bullet> For the same reasons, we have integrated work across our 
        deputy areas for National Forest System, State and Private 
        Forestry, and Research and Development. For example, all three 
        deputy areas have collaborated to develop the Southern Forest 
        Futures project--the first comprehensive analysis of the future 
        of Southern forests over the next 50 years.
  <bullet> In FY 2012, we began implementing a new Planning Rule that 
        will reduce the length of time it takes to revise management 
        plans, saving costs. We are also saving costs by streamlining 
        our environmental review process under the National 
        Environmental Policy Act.
  <bullet> We are implementing measures to achieve $100 million in cost 
        pool savings in FY 2013 and FY 2014 combined.
  <bullet> We have adopted new public-private partnership strategies 
        for leveraging restoration funding. For example, over 10 years 
        the Collaborative Forest Landscape Restoration Program is 
        expected to leverage $152.3 million in partner funding, about 
        62 cents for every Federal dollar spent.
  <bullet> We also signed an agreement to use municipal funds to 
        restore fire-damaged national forest land in the municipal 
        watershed of Denver, Colorado. Over five years, Denver Water is 
        matching the Forest Service's own $16.5 million investment in 
        watershed restoration. We have signed similar agreements with 
        Santa Fe, New Mexico, and with other cities on the Front Range 
        in Colorado, including Aurora and Colorado Springs.
  <bullet> We are proposing a number of changes in our budget line 
        items for FY 2014 to better integrate accomplishments, to 
        increase efficiencies in administration, and to make our 
        program delivery more transparent. For example, combing the 
        State and Volunteer Fire Assistance programs under Wildland 
        Fire Management will improve program management, reduce 
        administrative complexity, and will assist with improved 
        performance management.
  <bullet> In accordance with sustainability and efficiency mandates, 
        we are working to reduce our environmental footprint. We are 
        acquiring more energy-efficient vehicles and using the latest 
        technologies to reduce our greenhouse gas emissions and cut our 
        electricity and natural gas costs at facilities.
Future Outlook
    Our budget request focuses accordingly on America's highest 
priorities for restoring ecosystems, strengthening communities and 
providing jobs, and managing wildland fire. We are developing a kind of 
land and resource management that efficiently and effectively addresses 
the growing extent and magnitude of the challenges we face, as well as 
the mix of values and benefits that Americans expect from their forests 
and grasslands. We will continue to lead the way in improving our 
administrative operations for greater efficiency and effectiveness in 
mission delivery. Our research will continue to solve complex problems 
by creating innovative science and technology for the protection, 
sustainable management, and use of all forests, both public and 
private, for the benefit of the American people. Moreover, we are 
working ever more effectively to optimize our response to cross-cutting 
issues by integrating our programs and activities.
    The key to future success is to work through partnerships and 
collaboration. Our budget priorities highlight the need to strengthen 
service through cooperation, collaboration, and public-private 
partnerships that leverage our investments to reach shared goals. 
Through this approach, we can accomplish more work while also providing 
more benefits for all Americans, for the sake of generations to come. 
This concludes my testimony, Mr. Chairman. I would be happy to answer 
any questions that you or the Committee Members have for me.

    The Chairman. Chief, thank you. We're very much aware that 
you are not the only one involved in preparing these budgets. 
Sometimes I always think we ought to bring OMB up here too and 
we can rage away at them as well because I think you can tell 
there is bipartisan concern up here.
    Let me ask you about a question that I think is central to 
this debate about getting the harvest up in America. Last week 
I was in John Day, Oregon in Grant County, where they have put 
together a collaborative for the national forest there, the 
Malheur National Forest. Part of this debate, and I gather you 
were a part of it a couple of weeks ago in the House, is a 
debate about what is most likely to produce an increase in the 
harvest in a sustained way.
    Is it going to be a collaborative approach, the way they're 
doing it in John Day? We've been very involved in the work in 
setting it up. Or is it more likely that the harvest will get 
up in a sustained way by, in effect, taking Federal lands and 
putting them in private ownership? As you know there's talk 
about a reserve or something to that nature.
    Which of those 2 approaches, in your view, is more likely 
to get the harvest up in a sustained way?
    Mr. Tidwell. The collaborative approach. I think the record 
supports that. We've spent a lot of years in this country 
having the dialog, the debate, about how a national forest 
should be managed.
    Finally in the last few years we've been able to use 
collaborative, collaboration, in a way to bring people together 
that's actually increased the amount of work, the restoration, 
the timber harvest on our national forests. That's why I put 
out the accelerated restoration strategy last year, to be able 
to show that even with basically a flat, fixed budget that I 
believe we can continue to increase the amount of work getting 
done in the harvest. We were on pace to be able to do that.
    I think with our budget request we can quickly get back on 
pace.
    The Chairman. Now the sequester, obviously, takes a toll. 
Lifting the sequester and coming up with a bipartisan 
alternative clearly will help.
    Is there any way short of that? Because it's obviously not 
going to happen in the next 10 minutes, which is really what we 
need so the priorities can be arranged. I think you'd like to 
move in the direction of more collaboratives, perhaps more 
stewardship contracting. The staff has been going through a 
variety of programs, something I am not a big expert in, to 
find opportunities such as the cost pools account, for example.
    Are there ways in which--even in these constrained 
financial times--we can get the priorities changed? Senator 
Murkowski made essentially the same point. So we can get more 
into the timber harvest account?
    Mr. Tidwell. Mr. Chairman, I have used up all my limited 
flexibilities to be able to do everything we could to be able 
to mitigate the impact of the sequester reductions, especially 
when we get those in the middle of the year. I guess we'll have 
to wait and see how effective those are going to be. But I'll 
tell you I've done everything I can to be able to use our 
limited flexibilities.
    In addition to that, if we could send a strong signal that 
stewardship contracting is going to be reauthorized so that not 
only our purchasers, our contractors but our employees can see 
that that's going to continue to be a tool that's available 
along with timber sale contracts. That will be very, very 
important.
    The other thing is to show support for collaboration. It 
takes a lot of work to keep people at the table, especially 
those that in the past have not been supportive of restoration 
or timber harvest on the national forests. Any signals that are 
sent to those groups that say, hey this isn't the way we're 
going to keep working I think is what it's going to do is 
discourage those efforts.
    So those are a couple of things that we could--I would ask 
you to do right now to be able to help us get back on pace with 
our accelerated restoration.
    The Chairman. Let's do this. I mean, obviously the 
collaboratives, I think, are the way to go. It's my 
understanding that the reserves that are being talked about are 
managed by a private entity under state law. That's what's 
being discussed by some. I gather that technically still 
provides for Federal ownership.
    But you think between collaboratives and that approach, 
collaborative is the way to go. Is that correct?
    Mr. Tidwell. Yes, that's correct, Mr. Chairman.
    The Chairman. OK.
    Let me ask you one other question then if I might.
    On the sequester, where there is so much frustration in 
terms of the communities and the Governors. What is the 
deadline for the states to return these funds to the 
Administration?
    Mr. Tidwell. Mr. Chairman, I tell you I regret it, the day 
I had to sign those letters and send it out to, you know, to 
the Governors. We've asked them to indicate if they want us to 
take the sequester out of Title II. We've asked for their 
response this month on that.
    Then once we receive that, we will then move forward to 
send a bill for collection to those states that choose not to 
use the Title II funds. Then they'll have a certain amount of 
time. It's usually about 30 days before they need to respond to 
that bill.
    The Chairman. What's going to happen if the states don't 
return the funds because I think a lot of these communities 
just have no room, just no flexibility. What will happen then?
    Mr. Tidwell. I'm not the expert here, but it's my 
understanding that if the funds aren't returned the day that 
they're due that there will be penalties. There's interest 
payments that will occur. But I--we can get back to you as to 
exactly what the process is on that.
    The Chairman. I would just again encourage you to find a 
way to minimize the harm to these communities. I was in them. 
This is--they're walking on an economic tightrope now.
    I mean, they literally, in a lot of these instances, cannot 
fund basic law enforcement. There's discussion about setting up 
citizens self-policing kinds of organizations. It is that 
serious of a problem.
    So I would just encourage you to look for ways to mitigate 
the harm, No. 1.
    I'd like to ask you to look through all of the accounts 
that strike me as having a possibility to have some reductions 
in order to help the timber harvest, the cost pool account, the 
minerals program, and the land ownership management program. 
We'd like you to look at all of those.
    On the basic proposition now we've clarified that you think 
collaboratives make more sense for the long term than have 
something that may be technical Federal ownership, but is 
managed by a private entity under state law which is clearly 
going to trigger a lot of those battles that we saw in the 
past. But we've got to do something now. We're going to have 
the debate in terms of what to do for the future.
    You've convinced me that the collaborative route is the way 
to go. But we've got to get relief to these communities now 
otherwise they're not going to be around. They're not going to 
be around for us to have this approach with respect to the 
longer term kinds of ideas.
    So let me--I've gone over my time. I'm going to give 
colleagues a little extra time as well.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I will just add a final comment to the discussion here 
about Secure Rural Schools. Chief, it is adding insult to 
injury to these communities that, again, I've used the term 
there it's an economic disaster for so many of them when they 
look at the uncertainty with the Secure Rural Schools funding 
and really, the inability to look anywhere else, anywhere else.
    In Ketchikan, my birth place, you know, we've had this 
conversation before. They live in the middle of the Tongass 
National Forest. It's not as if there is developable land 
around them. It's .03 percent of the land is available outside 
of what the Federal Government holds for them.
    So to suggest that not only we're going to claw back the 
revenues that we've given you that you anticipated, that you 
budgeted for. We're going to claw that back. If you can't 
return that money then we're going to ding you with penalties 
and fines that they further can't pay. For heaven's sake. We 
have got to figure out a better path forward than that.
    We have got to figure out a way to avoid that because if 
they've got to return the dollars that they don't have because 
they have been spent. Now they're being assessed fines and late 
fees and penalties by their Federal Government. Wow.
    Let me ask a question following on. This relates to how we 
get the cut up, as we discussed at the last hearing a couple 
weeks ago. You were very clear. I felt you were very clear in 
that hearing that what we were going to see was an increase.
    So when in fact we are seeing a 15 percent reduction from 
year prior that doesn't bode well with the words that you have 
used. So how? Why? Why the 15 percent reduction?
    Then as you explain to that--explain that to me if you can 
explain how this budget and these reductions will affect the 
Tongass transition plan and the Tongass integrated plan that 
we've been working on. We've got the implementation of several 
big sales coming up. The Big Thorne out on Wrangell Island.
    Tell me how and what this means for us, not only from the 
national perspective, but more local in my home State, where 
again, these folks are hanging on by their fingernails.
    Mr. Tidwell. The 15 percent reduction in the timber harvest 
is reflected on what's happening this year. With having a 
reduction that we had this year, especially in the middle of 
the year, over half of our, the funds that we have to do timber 
sale preparation go to administering the current contracts and 
then covering some of the fixed costs that we have no choice. 
So we only have 50 percent to be able to work on the next 
year's contracts.
    So the whole 5 percent plus has to come out of that. So 
it's going to result in fewer crews to be out there to be able 
to mark the timber. So not only does that impact what we can do 
this year, but it also, I expect, it will have a larger impact 
in FY'14.
    Senator Murkowski. So you're saying that the reductions 
will be even greater in 2014.
    Mr. Tidwell. That's what I reflect with this current 
budget. That was our estimate. That's why you see the reduction 
in FY'14 because of what's happening this year.
    Now I admit these are conservative estimates because I'd 
much rather be able to come in here like we were after FY'12 
and say we exceeded the self imposed target that we put out 
there. I hope that we can do a better job. We're doing 
everything we can to be able to offset this. But as far as when 
I have to put out an estimate of what we're going to see in 
FY'14, it has to factor in the impact that's occurred, that's 
occurring this year.
    Now we're taking with the FY'14 budget, we can get back on 
track and for instance when you talk about the transition plan. 
It continues to be one of our priorities to be able to not only 
move forward with the Big Thorne and Wrangell. But at the same 
time to move forward with some work in second growth that is so 
essential for us to be able to show that in the future the 
timber harvest there in Southeast is going to be a mix of some 
old growth and also some second growth. Also to be able to move 
forward with some of the pellet plants that we're hoping to get 
into place to be able to offset those high energy costs.
    In addition to that with our limited resources this year we 
sent some additional money to do the road work for next year's 
sell. So we're doing what we can this year to be positioned to 
be able to get that harvest done next year.
    So those are the ways that we are approaching to be able to 
do what we can to be able to get back on track with our 
restoration strategy.
    Senator Murkowski. I think we would all agree that whether 
it's roads or whether it's a pellet plant, it doesn't do any 
good to have the infrastructure if we don't have the timber, if 
we don't have the product that can be used for that pellet 
plant. You don't need the road if we're not going to be able to 
harvest that timber. You and I talk a lot about this transition 
to second growth.
    But if you can't hang on until that timber is ready to be 
harvested you've got a dead or dying industry that cannot be 
resuscitated. I look at what you're proposing for the national 
sales. I see how that impacts us at the state level.
    Then I look at the budget category for land acquisition and 
you're telling me that on the one hand because of sequestration 
and the funding and the budget, we just can't make it happen. 
Yet we're seeing a 72 percent increase in funding for land 
acquisition again, with no corresponding increase in staffing 
to manage that. So I'm just not seeing how this all balances 
out.
    I've gone over my time. But hopefully we'll have a moment 
for or an opportunity for a second.
    The Chairman. We will definitely have a second round.
    Senator Johnson.
    Senator Johnson. Following up on the question by Senator 
Murkowski, why aren't the replacement of the fire fighting 
fonds and activities to combat the pine beetle problem offset 
by the land acquisition funds? Why is that not a good idea?
    Mr. Tidwell. Senator, our request with the land acquisition 
and also for our legacy program for conservation easements.
    First of all, it reflects from what we're hearing from the 
public to acquire these relatively small parcels of land that 
are key in holdings, not only to ensure that the public has 
access to be able to get up on to the national forest. But it 
also just reduces the amount of boundary location we have to 
deal with. It eliminates the problem that if we want to go out 
and do a timber sell, we no longer have to go out there and 
spend a lot of time citing that boundary. We can just go in and 
treat the whole area.
    So our land acquisition program, almost in every case, it 
actually reduces our administration costs. It gives us more 
flexibility. Then, as you well know, there's more and more 
interest on the national forest for more people to get out 
there and recreate.
    The private landowners sometimes get tired of those 
impacts. So we continue to see more and more private landowners 
want to close their lands so that the public can't get to the 
national forests. So this program is focused on being able to 
also acquire those key access points. This is always from 
willing sellers. We have people lined up for both the 
acquisition programs and also for the conservation easements.
    Senator Johnson. Good.
    Chief Tidwell, the reserve accounts established under the 
FLAME Act have been operating for several years now with the 
goal of preventing the practice of ``fire borrowing'' to cover 
costs associated with wild fires. But last year the Forest 
Service had to transfer money from non fire accounts to pay for 
fire suppression. Are the FLAME reserve accounts not operating 
as they were intended? Can we expect to see additional 
transfers this year if we experience another high cost fire 
season?
    Mr. Tidwell. From my view the Flame Act has not had the 
success I think we were all hoping for, for a variety of 
reasons. So like last year we had to transfer $440 million. To 
put that into perspective, over the last 10 years we've 
transferred $2.7 billion.
    In addition, you know, to that as to what we're looking at 
for this fire season and we're predicting a similar fire season 
to last year. So in all likelihood we're going to have to end 
up transferring, you know, a similar amount of money if we have 
the same level fire season. We're hoping that it moderates. But 
we're going to be prepared for similar fire season to last 
year.
    So at this point I can anticipate coming back up here 
asking for your approval to be able to transfer the funds.
    Senator Johnson. The Forest Service Restoration Strategy 
called for increasing the pace and scale of restoration in the 
national forests. What specific steps has the Forest Service 
taken since the Restoration Strategy was published in February 
2012 to increase efficiency of implementing NEPA, timber sales, 
and stewardship contracts? To what extent will those increased 
efficiencies be able to offset the reduction in funding from 
the sequester?
    Mr. Tidwell. Senator, I'll start with using the project 
there in the Black Hills with that adaptive EIS that covered 
the 248,000 acres, one document that positions that forest to 
be able to go forward and do the work. That demonstrates how we 
can be more efficient in our NEPA processes.
    The second thing that we're going to continue to work on 
we've put our new rule out for--with the objection process. So 
that we've replaced our old appeals process with an objection 
process that I think also provides better opportunity for the 
public to be able to participate in, you know, in our project 
development. But also it will speed up the decision making on 
that.
    The other thing, we're working with all of our regions 
across the country to be able to maximize efficiencies as to 
how we do our sell prep. We used to spend a lot of time, you 
know, marking individual trees. We got a lot of parts of this 
country today that those trees don't have a lot of value. But 
they need to be harvested. So we're changing the way that we do 
some of our sell prep to continue to be able to reduce our 
costs.
    These are the sort of things that we've been working on to 
be able to continue to accelerate the pace basically without 
asking for more money.
    The other thing is stewardship contracting. It is the right 
tool, especially when we're dealing with some of our forests 
where we need to remove a lot of the smaller diameter material 
that doesn't have a lot of value. If we can do that through a 
stewardship contract to be able to use the value of the 
merchantable material to offset the cost of removing the 
smaller diameter stuff. We can't do that with the timber sale 
contract.
    So a stewardship contract is just another essential way for 
us to be able to continue to, you know, accelerate our 
restoration.
    Senator Johnson. Thank you, Chief Tidwell.
    My time is expired.
    The Chairman. Senator Barrasso is next.
    I'm going to have to be in the Finance Committee. So I 
think what we'll do is we'll have Senator Barrasso next. 
Senator Udall has arrived. We're very appreciative of the fact 
that he can stay a bit and chair.
    Senator Udall, I know there's great interest in a second 
round with the Chief. So I will try to get back as soon as I 
can. So we'll go with Senator Barrasso.
    Next Senator Udall for his questions. Senator Murkowski to 
begin our second round. Then hopefully I'll be back fairly 
shortly. But if you would, let's ensure that at least other 
members who want to come and myself can get for their first 
round and I can get back for a second round as well.
    Alright, Senator Barrasso.
    Yes, we can keep talking there's no shortage of that in the 
Senate.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Chairman, I'd like to note the House and the Senate 
have already passed their respective budgets and I appreciate 
you being here today. The timing of the Administration's budget 
is another example, in my opinion, of the President leading 
from behind. I share your concerns.
    The concerns I hear from you, from the agency employees and 
various stakeholder groups who work with the Forest Service. 
The concern is with the overall inability of the Forest Service 
to actually manage our forests. Under this Administration the 
Forest Service is chasing wilderness designations, climate 
change, land acquisition and wildlife management. If our sick 
and decaying forests have any hope to recover the Forest 
Service really must return to its roots of management and 
proactively improving the health of our forests.
    Also, this committee led by Senators Wyden and Murkowski 
have oversight responsibility. They're working together on 
that. As such, I can't support the Administration's integrated 
resource restoration of the IRR program until the ability of 
Congress to maintain its oversight role is fully addressed.
    I have a number of questions. I wanted to start with Good 
Neighbor Authority. At this same time, at this same budget 
hearing last year we spoke about and agreed upon the useful 
tool, the Good Neighbor Authority would be and both for the 
states and the Forest Service. My home state of Wyoming needs 
and wants the ability to work with the Forest Service and the 
Forest Service desperately needs every tool it can get to 
actively manage and restore forest health.
    Along with Senator Udall, who is here chairing the 
committee, and Mike Lee and Tim Johnson, who is here as well 
this morning, once again introduce the Good Neighbor Authority 
Act. With bipartisan support of this committee it's time, I 
believe, for the Administration to fully support this common 
sense and much needed legislation. Will you personally commit 
to engaging on Good Neighbor Authority?
    Mr. Tidwell. Senator, yes. In fact, we do support expanding 
the Good Neighbor Authority. We do have a few minor technical 
adjustments we'd like to work with you on based on our 
experience so we can make it even more effective, more 
efficient.
    But you're exactly right. This is another tool that allows 
us to bring more capacity to be able to do the work across 
larger landscapes. At the same time, you know, it increases the 
cost of our work. So I appreciate your support for helping us 
to be able to move forward with this.
    Senator Barrasso. I'm glad to hear that because as you know 
the Forest Service is going to be testifying on the bill on 
April 25th.
    I wanted to get to another topic that others have discussed 
and it has to do with the Forest Service air tanker 
availability. Like many on the committee, I'm concerned with 
the current status of air tanker availability to fight wild 
fires. We all agree in these times of constrained budgets that 
the Forest Service is going to need to get more work 
accomplished within the existing budget resources.
    So the agency needs to focus on how to effectively and 
efficiently deliver the required annual fire retardant in the 
most cost effective and safe manner. So I'm going to include an 
air tanker related question for the record. I just would ask 
that you commit to getting that answer addressed in a timely 
manner.
    Mr. Tidwell. Yes, I will.
    Senator Barrasso. Thank you.
    In terms of grazing management the Forest Service budget 
proposes additional fees of a dollar per AUM, animal unit month 
for family farmers and ranchers to recover the costs associated 
with NEPA analysis and issuing grazing permits. You know when I 
talked to both ranchers and agency employees back in Wyoming, 
they attribute the increase of cost to renew a permit actually 
to excessive litigation against the agency. I'm wondering what 
percentage of the Forest Service system line item budget is 
actually spent on litigation, if you know and you may not know.
    Mr. Tidwell. You know, Senator, I can get back to you with 
the amount that we spend as far as the legal costs. I can--we 
can probably give you an estimate about the time that we spend 
on it.
    Mr. Tidwell. But it's one of the things why we've been 
focused for years to be able to get the NEPA down on our 
grazing allotments to alleviate some of that concern from some 
litigation.
    It's one of the reasons why we had to make some tough 
choices in this budget. You know, the idea of increasing the 
fees for, you know, for our ranchers, you know. That's a hard 
thing.
    But without that it's going to be so difficult for us to be 
able to do the administration that needs to be done to ensure 
so that the opponents to grazing that we have a good response 
because we can show we've done the monitoring. We can show that 
the range is in good condition. We need to be able to do that.
    So that's one of the reasons why we've proposed this idea 
to be able to generate some additional money to be able to 
really focus on that administration on the monitoring with an 
understanding that the NEPA work is going to continue to 
probably have to be postponed just like we've been having to do 
that for about the last, I'm going to say, 10 years now.
    Senator Barrasso. Is the Forest Service doing anything to 
recover the costs associated with some of these excessive 
lawsuits?
    Mr. Tidwell. No, we do not have any authority to recover 
those costs.
    Senator Barrasso. Do I have time for one more question, Mr. 
Chairman? Thanks.
    It's on timber management and other Senators have addressed 
that the Forest Service announced that a result of the 5 
percent sequester cut that timber production would be cut by 15 
percent. So, I mean, it just makes me think if Congress 
increased funding specifically for timber production by 10 
percent, you know, could the Forest Service then increase total 
board feet by 30 percent if you've got to use the 
proportionality.
    So I guess just some clarification.
    Does the Forest Service include the areas burned by wild 
fires as acres treated when you report those numbers to 
Congress? We're just trying to dissect out how the numbers are 
all reported.
    Mr. Tidwell. When we report the total acres where we've 
used fire to restore ecosystems, we do report that. Then we 
actually identify how many acres have been treated using fire 
and how many acres have been treated by using timber harvest, 
mechanical treatments.
    Senator Barrasso. OK.
    I think I'm going to maybe, submit some written questions 
to kind of try to dissect through those numbers to see how that 
all works.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Udall [presiding]. Senator Barrasso.
    Senator Barrasso. That's quite alright.
    Senator Udall. Feel free to ask some additional questions 
if you'd like.
    Chief, I'm going to use my time now. Good to see you. Thank 
you for making the trip up to the hill.
    I'd like to start out with wild fire questions as well. I 
don't have to tell you that we had 2 deadly fires last summer 
that gained national attention, the Waldo Canyon and the High 
Park fires. They were declared national disasters.
    Tens of thousands of people were displaced. About a million 
Coloradan's water supplies were threatened. We're still dealing 
with the aftermath of that.
    In that context and I know this is a theme you've been 
hearing a lot today, I've noticed that within the wild land 
fire management budget the hazardous fuels sees a 37 percent 
cut. That concerns me particularly because the number of people 
living in fire prone areas is increasing as are fuel loads. The 
importance of mitigation is well documented.
    Your own report, Increasing the Pace of Restoration, a job 
creation on National Forests, has a goal of treating more 
acreage every year. Can you talk about how you plan to meet the 
goals and the strategy while protecting the areas most at risk 
for wild fire with such a large reduction in funding?
    Mr. Tidwell. This budget reflects a reduction in the total 
acres that we would treat. However we are going to continue to 
treat the highest priority acres around our communities. Our 
hazardous fuels funding will be focused on treating only the 
wild land urban interface and to be able to work where we--the 
communities are working with us.
    It's one of the things that we found with our hazardous 
fuel treatments is that it's essential that if we're treating 
the national forest the ideal situation is that the private, 
the adjacent private lands, are also the works being done 
there. So it really maximizes the effectiveness. That's how 
we're going to, you know, prioritize this work.
    In addition to that we'll use our restoration funds, an 
integrated resource restoration, to be able to do the hazardous 
fuels work in the back country outside of the wild land urban 
interface in conjunction with our restoration. So we're still 
going to be doing hazardous fuels work out there. It will just 
be part of these larger projects.
    This money will be focused just on the wild land urban 
interface.
    Senator Udall. Thank you for that clarification. I'm not 
going to continue on and have that conversation with you. But I 
hear you saying you're focusing on what we call the red zones 
of the WUI, the Wild Urban Interface.
    Mr. Tidwell. Yes.
    Senator Udall. So thank you for that clarification.
    In my State and you heard Senator Murkowski and other of my 
colleagues talk about how critical the forest products industry 
is in the improving of the health of our forests while 
providing jobs. In my State you have rural communities like 
Montrose and Delta, who are playing, again, an important role 
in that regard. I want to thank you and your team for your 
efforts to implement 3 long term stewardship contracts in 
Colorado that have already released fuels around communities 
while providing valuable forest products such as biomass 
electricity in Pagosa Springs and Gypsum, landscaping materials 
in Colorado Springs and wood pallets in Pueblo.
    Those are good news stories.
    But I also want to echo the concerns of my colleagues about 
the reduction in timber targets from 2.6 billion to 2.3 billion 
as I read it. That's board feet. The effect that could have on 
our still struggling timber industry and our capacity to do 
more on the ground. So I'm just making that as a statement. You 
don't have to respond.
    Let me move to air tankers. The effect they have on the 
initial attack which means they keep small fires from becoming 
catastrophic mega fires and helping our ground crews put those 
fires out is well understood. When you fight a fire you're 
going to war.
    Given we're facing another potentially severe fire season 
what can you do to ensure me that we're going to have the next 
generation air tankers in the air during this fire season?
    Mr. Tidwell. In addition to the legacy air tankers that we 
issued the contract for a few weeks ago, in the next few weeks 
we'll issue the contract for up to 7 next generation aircraft 
that will hopefully be able to work this year. In addition to 
that we'll continue to rely on the MAFFS units that we used so 
much last year along with the VLATs that we also used and then 
also to bring the aircraft down from Canada and Alaska to 
ensure that we have the aircraft that we need to be able to 
respond to these fires.
    As we move forward with the next generation in aircraft and 
hopefully with the C27Js, it will reduce the reliance on the 
MAFFS units and to be able to ensure that we have that initial 
attack capacity with our air tankers.
    Senator Udall. On a scale of 1 to 10 how confident are you? 
Ten being the most confident that we're going to have the air 
assets we need?
    Mr. Tidwell. For this year? I'm at a 10 that we'll have 
probably 24 to 25 large air tankers available this year with 
between the MAFFS and the planes from Alaska and in Canada 
along with the contract that we'll have.
    Senator Udall. Let me move to some of the discussion about 
sequester and the transferring of funds and so on.
    Given rising suppression costs and the fact that the agency 
spends nearly half of its budget on wild fire management which 
I think my colleague, Senator Johnson, alluded to. In so doing 
you're transferring funds from other programs. What's the 
impact on these other important programs? Obviously fire 
response is critical, but it's, I don't have to tell you it's 
not the only mission of the Forest Service.
    Mr. Tidwell. No, but the sequester had an impact on that 
and reduced the suppression funding. It also reduced the 
preparedness funding. Now we're going to mitigate that the 
impact of preparedness funding, I mean, if you just look at it 
it reduces our crews by about 500 firefighters and, you know, 
50 to 70 fire engines and less money for aircraft.
    But the way we'll offset that is that we'll do more 
prepositioning of resources. Then we'll use more call when 
needed resources, whether that's contract crews, more contract 
helicopters, the call when needed and if we need to call when 
needed large air tankers. The problem with that a call when 
needed contract runs anywhere from one and a half to 2 times as 
much as our exclusive use.
    So we'll start off the season with less resources, but 
right at the start even with the moderate fire season we're 
going to spend more on suppression because of this reduced 
level of preparedness to start.
    So I wish I could give you a better answer. But because of 
sequester, it's probably just going to cost us more money when 
it comes to fire suppression. But we will respond. We'll have 
the resources that we need.
    Now in addition to that we've already talked about the 
impacts, you know, to the restoration work, you know, to timber 
harvest. We also are going to have to, you know, close some of 
the lightly used recreational facilities. These are usually 
the--some smaller campgrounds, smaller boat ramps. We're 
looking at somewhere around 600 of those facilities, but that's 
out of close to 20,000 recreational facilities that we manage.
    We're also looking at opportunities to do shortened 
seasons. We're getting some good snows out in your country that 
will actually shorten the season. So that may help, you know, 
impact some of the off--of having to close facilities.
    So the folks are working hard. We're also working with 
communities to see if there's a way to get a volunteer group or 
something to come in and do the minimum maintenance that's 
necessary to be able to maintain these facilities. But those 
are the impacts that, some of the impacts, that we're dealing 
with through the rest of this year because of the shift in the 
budget we received.
    Senator Udall. Let me ask you one last question and the 
bulk of the answer I'd ask you to provide for the record since 
I see Senator Franken here. Senator Murkowski has another round 
of questions.
    But your Rocky Mountain Research Station reviewed 2 other 
Colorado fires, the Hayman fire which is unfortunately infamous 
in our state. Ten years ago it occurred and the Fourmile Canyon 
fire. Both of those reviews showed conclusively that one of the 
most critical factors in protecting homes in a wild fire is the 
proactive work that homeowners do and the so called HIZ, the 
Home Ignition Zone.
    Would you, again for the record, but maybe briefly, 30 
seconds or so, you could talk about what you've been doing to 
support these critical efforts on private property.
    Mr. Tidwell. It is part of our cohesive strategy where 
we're working with the states and local fire to be able to 
inform private landowners, inform county commissions, county 
supervisors that the steps that can be taken to make, to help 
our landowners understand what they can do on their land can 
make all the difference when we get a fire. I'm going to tell 
you we have hundreds of thousands of examples of where if a 
homeowner has taken the steps to remove the brush, the trees, 
from around their homes. The woodpiles away from their homes 
and using non flammable materials for decks and that sort of 
things, those homes survive when a wild fire comes into a 
community
    That's the sort of thing we have to continue to work on 
along with reducing those fuels on the national forests that 
are around our communities.
    Senator Udall. Yes, I would note that if you move a propane 
tank from close proximity to your home that's a very good idea 
for obvious reasons. The studies also show that the most 
important tools you can deploy are a weedwacker and a rake. A 
chain saw actually is of less use. It's pretty simple things 
people can do.
    Thank you for being here again today.
    Senator Franken is recognized.
    Senator Franken. Thank you, Mr. Chairman. I want to 
remember that weedwacker and a rake. That's a good thing to 
remember.
    Thank you, Chief, for being here.
    I want to talk to you about the boundary water canoe area 
which, as you know, is spectacular wilderness area between 
Minnesota and Canada up in Northwestern Minnesota. Now for 
historical reasons over 93,000 acres of school trust lands that 
belong to the state are enclosed in this Federal wilderness 
area which means they cannot contribute to the economic 
development which support Minnesota schools. There are a few 
possible ways that this problem can be fixed.
    The Forest Service can purchase the state lands from 
Minnesota or the Forest Service and that money would go into 
the trust fund or the Forest Service can take ownership of the 
state lands inside the boundary waters and give up ownership of 
lands outside the boundary waters in exchange with the State of 
Minnesota. A third approach would be a hybrid of those 2.
    In fact, Minnesota is working with the Superior National 
Forest on this issue. I think your support and attention to 
this matter would be important to facilitate a resolution. 
Would you commit to meet today to working with me, the State of 
Minnesota and the Superior National Forest so we can resolve 
this decades old problem?
    Mr. Tidwell. Senator, you have my commitment. This is a 
perfect example of where probably a combination of land 
exchange and maybe some acquisition can not only help out the 
state to be able--so they can generate additional revenue off 
of their land, but at the same time to be able to maintain the 
purpose of the boundary waters area. So you have my commitment 
to work with you to be able to move forward with this.
    Senator Franken. Thank you. I appreciate that.
    Chief, you and I in previous hearings have talked about 
climate change. You told me your scientists are telling you 
that climate change is exacerbating wild fires. Today I want to 
ask you about some of the other challenges that climate change 
presents to our forests. In particular invasive species like 
the bark beetle. Senator Udall has done a lot of work on the 
pine beetle in Colorado.
    As you know the bark beetle is normally kept in check by 
cold winters that kill its larvae. But as winters get warmer 
the bark beetle is surviving at higher altitudes and destroying 
more forest.
    Again Senator Udall has been working on the pine beetle in 
some Colorado forest. The warmer weather is causing the 
mountain pine beetle to go from reproducing once a year to 
reproducing twice a year. In a little over a decade this 
mountain pine beetle has killed more than 70,000 square miles 
of forest which is equivalent to the entire State of 
Washington.
    When you develop your budget, Chief, are you taking into 
account future climate change impact?
    Mr. Tidwell. We do that through the work that the forests 
are doing in conjunction with our research and development 
branch. We're fortunate to have a group of scientists that have 
been studying the effects of a changing climate on vegetation. 
So we've already started in factoring that in to our decisions.
    To realize that the ecosystems we have today, the mix of 
species we have today, may not be what we need to have in the 
future. So by understanding how this climate is changing and 
how it's affecting the vegetation, we're factoring that into 
our decisions so that our forests in the future are going to be 
more resilient to be able to handle the stresses of a changing 
climate. So we factor that into our planning that we're doing. 
It's part of our new planning rule requirement.
    Then also our scientists are working directly with our land 
managers so that they understand what they need to do 
differently. They need to understand that we need to mix up 
this even age stand, the lodgepole that we have throughout the 
West instead of having millions of acres of basically all 
lodgepole that's all the same age. We've got to find ways to 
break that up because in the future when we have infestations 
usually they just hit the older mature trees and leave the 
younger trees. The condition we have out West is that so much 
of it's been, you know, just an even age.
    We also need to understand the impacts of species like 
white bark pine. That in the past we never had to worry about 
bark beetle hitting white bark pine because it grows at such 
high elevations where it's always been cold enough that the 
beetles were never a problem. Today we understand what we need 
to do differently with white bark pine to be able to maintain 
that species with this changing climate and having to deal with 
bark beetles.
    The other things going on is with the invasives in the 
East. With the emerald ash borer that was introduced to this 
country a few decades ago it's on a path to eliminate all ash 
trees in the Eastern United States. It's already made it into 
Southern Canada. In the past cold winters would have stopped a 
species like emerald ash borer, you know, probably where it 
didn't get much farther north than, you know, just maybe in 
Pennsylvania. But we're actually seeing it now move into 
Canada.
    We need to continue to do the research so that we 
understand what we can do to control, biologic control, of 
those types of species. So that we don't end up with ash trees 
like we have with the American chestnut. Those are a couple of 
things that we're continuing to work on.
    Senator Franken. Thank you.
    I see my time is up.
    I just want to thank you for your help when we had the big 
blow that brought down some timber in Northern Minnesota and in 
the Chippewa National Forest. I want to thank you for your help 
in making it, our timber industry, able to harvest that.
    Thank you.
    Mr. Tidwell. Senator, I'd like to just comment on that. 
When we talk about the effects of a changing climate one of the 
things that we see is more erratic weather, more of these 
extreme disturbance events. So your part of the country where 
we used to, once in a while, we'd have a big wind storm that 
would come through and we'd have to be able to respond to it to 
be able to get in there and clean up the down and dead timber.
    We now recognize today that we need to plan for that every 
year. So that we've actually put it through our program of work 
each year for especially that part of the country to be 
prepared to set aside funds to be able to respond to the 
basically the next impact, the next disaster. So that we have 
the resources to quickly get in there and clean up that timber 
before it creates another insect and disease problem.
    Senator Franken. Thank you for your response during that. 
It was good talking.
    Mr. Chairman, thank you for allowing me.
    Senator Udall. Thank you, Senator Franken. Thank you for 
including Colorado's situation in your remarks.
    Let me recognize the Ranking Member, Senator Murkowski, for 
her second round.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chief, in discussion going back and forth here about how 
the interagency model works with states that mobilize to 
provide the resources in when we have wild fire incidents. 
Alaska, obviously, plays a key role in all of this particularly 
with respect to the air tanker support. You've noted that.
    Now for decades it's my understanding that the master 
cooperative fire agreement has provided this mechanism, for 
among other things, the billing and reimbursement between the 
states, the USDA, Forest Service and other Federal agencies to 
facilitate the mobilization of these suppression resources. 
Under that agreement state resources dispatched out of state, 
regardless of jurisdiction, have been submitting their billing 
package to Forest Service at the Albuquerque center for 
payment. It's my understanding then that beginning this year 
the Administration is no longer going to use single point 
interstate billing. States will now be forced to figure out how 
and who to bill when responding to Federal jurisdictional fire 
outside of their own State.
    This is news to me. I guess the question to you is why is 
the Administration ending a system that, I think, has been 
relatively efficient in mobilizing these suppression resources? 
I'm going to put out there the concern that I have. We've been 
dealing with some of our just aviation support folks up in 
Alaska, people that will fly, cruise around, on a contract 
basis. The billing system with MDOI has been fouled up to the 
point where operators are calling me to try to get paid for 
services that they have rendered 9 months prior, 12 months 
prior.
    So I'm looking at this and all the bells and whistles are 
going off saying, is this a good thing? Why are we doing it? 
Why are we fixing something that apparently I hadn't heard was 
broken?
    Mr. Tidwell. Senator, I'm not aware of that, but I will get 
back to you on it. I'll look into it. The points that you've 
made that our master agreements work so well so that folks, 
whenever they're called they can just respond.
    Senator Murkowski. Right.
    Mr. Tidwell. They've always had the confidence that yes, 
they'll be reimbursed for their costs. You know, I'll get back 
to you. I know we're constantly looking at our processes to be 
able to find more efficiencies to be able to save some of the 
overhead costs, but then also to be able to pay those bills 
faster.
    Senator Murkowski. Right.
    Mr. Tidwell. Because those folks, they need their money. 
They can't--I hate to hear when you say folks go for months 
without getting their payments. So I will look into that and 
I'll get back to you on it.
    Senator Murkowski. I would appreciate it if you would do so 
quickly because as we go into the fire season if states aren't 
really sure where they submit their billing you would hate to 
think that somebody is going to hold back or defer because 
they're worried about where their reimbursement is going to 
come from.
    Mr. Tidwell. Right.
    Senator Murkowski. The timeliness of that. So if you can 
address that, I would appreciate it.
    A couple more parochial matters here.
    I'm going to be going to Ketchikan in a couple weeks and 
sitting down with some of the air taxi operators that are 
there. What I'm hearing from folks there is that the Forest 
Service is reducing the permit allocations in the Misty Fjords 
National Monument and Trader's Cove. What they're doing is 
they're reducing the number of allocations that would allow for 
landings within Misty Fjords by 20 to 30 percent for each air 
operator.
    Now you've sat here this morning and told us that hey, it's 
all about, you know, the tourism dollars that come in. Iin 
Ketchikan, as you well know, this is a timber community that is 
no longer a timber community. They're trying to find something 
else so they're turning to tourism. Yet, now the National--the 
Forest Service is limiting the opportunities for tourism for 
these taxi operators.
    As you know, the monument is accessible only by water or by 
air. So again, I'm going to be meeting with these folks in a 
couple weeks. I would like to know that you can give me a 
commitment that the Forest Service is going to reconsider this 
decision that would reduce these allocation numbers.
    Mr. Tidwell. Senator, we need to diversify the economy 
there in Southeast Alaska. I know you've been supportive of 
that. We need to get the integrated wood products industry back 
to be part of that diversification. But as you've mentioned 
yes, tourism is a big part of it.
    This is when I apologize, but I'll have to look into this 
and get back to you. I'll make sure that we do that this week.
    Senator Murkowski. Great.
    Mr. Tidwell. So you have our response and what we possibly 
can do as we go forward with this.
    Senator Murkowski. That would be important to me if I can 
get that information and your review of that prior to, I think, 
it's like the 24th of April there.
    Senator Murkowski. Then one last. This is also an effort 
for me to reduce the volume of mail that comes to me from 
constituents. This relates to an area outside of Wrangell, 
Alaska on its Stikine River. There is an area known as Anan 
Creek which has premier bear viewing opportunities.
    Again, Wrangell, a community that, you know, I use the 
expression all the time these communities are hanging on by 
their fingernails. I'm not sure Wrangell has any fingernails 
left. So they're looking also for their tourism opportunities.
    The bear viewing area there at Anan Creek is again, pretty 
phenomenal. The problem that exists is that boaters who want to 
go up the Anan Creek Trail can't tie up anywhere because there 
is no float. There is no docking. Apparently it's a little bit 
of a hazard.
    I know that we're dealing with budgets. I know that things 
are tight all over. But again, if what you're trying to tell me 
here is that we're going to where we're not going to be 
focusing as much on the multiple use. We're going to see timber 
harvest to continue to drop at the same time we're going to 
increase tourism opportunities.
    I think that the Forest Service needs to look at how you 
might be able to allow for tiny slivers with minimal impact. 
Anan Creek, I think, is clearly one of those. I don't know 
whether you've had an opportunity to be briefed on this. If not 
I would understand that, but would ask also that you have your 
folks take a look at this.
    Mr. Tidwell. It's my understanding that yeah, if you tie up 
there your boat gets beat up in the rocks pretty easily. It's 
an area that I want to work with you. I know the region will 
want to work to be able to find a way to be able to put a dock 
in there. I understand it would have to be one that would be 
taken out each year. But we do that in a lot of places.
    Senator Murkowski. Right.
    Mr. Tidwell. There's systems in place now that you can 
retract a dock and then put it back out. So it's one of the 
things that I'll contact the region to see what we could do to 
maybe, be able to move forward with, you know, putting a dock 
there.
    Senator Murkowski. OK, well I would appreciate that. Then 
again, if you can get back with me on the Misty Fjords issue.
    I've got one more quick question, Mr. Chairman. Then I'm 
wrapped up if you're OK.
    The Chairman [presiding]. I have additional questions.
    Senator Murkowski. OK.
    The Chairman. I want you to go ahead first.
    Senator Murkowski. Alright. This is the last one for you. 
This relates to the inventoried road less.
    As you know the U.S. Court of Appeals trucked down the 
decision to exempt the Tongass from the national road less 
decision. This is going to remove some 9 million acres in 
Southeast out of the state's timber base. But in addition to 
that, as troubling as that is, it causes me concern because it 
really does complicate efforts to build electrical transmission 
lines. As you know, all of Southeast is predominately powered 
by hydropower but you've got to be able to put those 
transmission lines in.
    The response that I get back is well, the road less rule 
doesn't prohibit you from putting in this transmission lines. 
You just have to do it by helicopter. Anybody that's tried to 
put in a transmission line by helicopter in Southeastern Alaska 
knows that you have now made it effectively cost prohibitive.
    So it limits our ability with energy, renewable energy 
development, access to mineral areas. You know the impact to 
the economy. So my question to you is how much does it cost the 
Forest Service to--and this, I guess, in both in time and in 
staff to deal with the administrative demands of implementing 
the inventory road less within Southeast Alaska? We have any 
idea?
    Mr. Tidwell. You know, I don't have a figure off the top of 
my head, you know, Senator. But it's, you know, the reason we 
have, you know. I'll go back to 2001 road less areas that these 
were areas for the most part had never been developed. It 
hadn't had--it didn't have a lot of roads, hardly any roads in 
them. They were places that we heard from the public that there 
was strong interest to be able to maintain these intact 
ecosystems.
    With that being said the rule does allow, you know, 
flexibility. Where I have not worked in Southeast Alaska I've 
worked in a lot of other parts of the country where we've built 
power lines using helicopters. Often it becomes the best way to 
be able to put in, especially, the larger towers.
    So I'd like to for us to be able to get some analysis done 
to be able to really look at what is--is it truly cost 
prohibitive or is it just some additional cost. But to be able 
to do it in a way that we can expand, you know, the energy 
transmission up there in Southeast Alaska. Because that's such 
a key part of our transition strategy to be able to reduce the 
energy costs that we need to be able to find a way to transmit 
that electricity.
    So that's what I'd like to focus on is how we can find a 
way to be able to do that but at the same time to be able to 
protect the road less characteristics of those lands.
    Senator Murkowski. Chief, I would invite you up anytime. In 
fact, I'd like to take you on some of these trips. I'd like to 
take you out to Angoon where they're paying 51 cents a 
kilowatt/hour.
    I'd like to take you over to some of these communities that 
can practically see where the transmission lines are but they 
can't get to the next community. So they are paying double, 
triple, quadruple what the next village is paying for their 
renewable, hydropower electricity that is generated and to fly 
over these areas.
    It's one thing to put, to utilize, a helicopter to put a 
transmission line in in a place like Wyoming or a place like 
Oregon. But the Tongass National Forest is pretty much, you 
find me a flat piece of land, you find me an area that's not a 
mountainside where you're blasting into rock. The only place 
that I can think of is out there on the beaches.
    It is a very unique terrain. The beauty of being able to 
provide energy to the people there in Southeast is we've got 
abundant hydro resource. But you've got to be able to put in a 
transmission line.
    So I would ask you on this issue do not make the assumption 
that because you can utilize a helicopter in other parts of the 
country to put a transmission line in that's the same operation 
in Southeastern Alaska. It just belies the geography. It belies 
the topography.
    So if you're thinking that this is reasonable. I need to 
take you on a field trip. I will promise to do so. I think the 
folks that work for you up there know how extraordinarily 
difficult this is.
    If we can't get around that our communities will be choked 
off. We've already been choked off from our timber harvest and 
now we will be choked off because we cannot afford the energy 
and the power. They cannot afford the power in these 
communities.
    We've got to be able to build these transmission lines. 
We've got to have some help around the road less that is 
strangling our opportunity economic development. The tourists 
want to come, but if there's no lights for your hotel they're 
not going to come.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Chief, I can tell you that the Murkowski excursions to 
Alaska are very educational. I would encourage that.
    I want to ask you about 2 other areas that I haven't 
touched on today relating to getting the harvest up, Chief. One 
is what came up constantly during my swing through Eastern 
Oregon a week ago. That is the National Environmental Policy 
Act.
    What I understand from the agency is that one of the 
reasons that the timber target went down is the agency 
implemented many of the projects for which NEPA and planning 
had been done and planning hasn't been completed for new 
projects. So what the concern was, as I was making my way 
through Eastern Oregon, is why the agency can't implement 
projects and also continue to plan for new projects in future 
years.
    So my question really is is there some way to accelerate 
NEPA efforts or to streamline the program? In other words, 
you've heard me say repeatedly, I want to keep our key 
environmental priorities. I think we can do that consistent 
with getting the harvest up. But is there a way to accelerate 
or streamline the NEPA efforts beginning right away so the 
agency can meet that target of 3 billion board feet in fiscal 
year 2014?
    Mr. Tidwell. Senator, we've been working on those efforts. 
It's first of all to take a look at the entire landscape so 
that we do an environmental assessment or an EIS for much 
larger acres to get away from the 5 to 10 thousand acres and 
look at these hundreds of thousands of acres and do one 
document.
    The other key part is through the collaborative efforts 
like you have there in the Blues there in Eastern Oregon and 
they're at Malheur. Because of that work we can reduce the 
amount of the number of alternatives that need to be considered 
because people work together and come to agreement about the 
type of work that needs to be done. Then we build the necessary 
mix of alternatives to be able to go forward and be able to 
address the impacts and make the decision.
    So by taking this landscape scale approach, using our 
collaboratives to address a lot of the issues as we move 
forward with doing the analysis. That's the way that we're 
going to be able to get more work done.
    The other thing is through our stewardship contracts. So 
that when we issue a contract to someone for 10 years they can 
rely that they're either going to have the work to do, the jobs 
are going to be created or that the Forest Service is going to 
have to then reimburse them. Because under that 10-year 
contract we're required to get our part of the job done so that 
they can get their work done and the jobs are delivered.
    So those are the ways that we're moving forward. Yes, we've 
had to slow down a little bit this year with less resources, 
less crews. You know, this summer it will be out, you know, 
marking some of the sells. But the real NEPA efficiencies that 
we've been putting into place, they're just now starting to 
come onboard. That's why that I have the confidence that we can 
get back on track with our restoration strategy and actually do 
what the work that needs to be done.
    There in your State, in Eastern Oregon, my folks tell me 
that to really get on top of what we need to do we probably 
need to double the number of acres that we're currently 
treating there. That through these collaboratives there's 
support to be able to do that. That's what it will take to 
actually restore those systems so that there's less impact from 
the large fires that we've had in the past.
    I can go on. There's other states where we have this level 
of support to be able to do the work. That's what we have 
available for us today.
    If we can just stay the course on this collaborative 
approach to be able to actually restore these forests in the 
way we're there. There is strong support for it. At the same 
time it's producing tens of thousands of jobs.
    The Chairman. I'm going to direct the staff and, of course, 
work very closely with Senator Murkowski on this so we can 
start looking at ways to accelerate this kind of NEPA 
streamlining and ways in which we can protect the environmental 
laws and get the harvest up. I heard it again and again 
throughout these small timber towns in Eastern Oregon. They 
keep saying there's got to be a way for the agency to be able 
to implement projects and plan for new projects in future 
years.
    So we're going to follow that up with you. I can tell you 
it will be a bipartisan concern in the committee.
    Let me connect the dots on the hazardous fuels issue and 
see if we can walk through the implications. You've got the 
prospect of steep cuts to hazardous fuels and timber harvest. 
That's what Senators have been saying. I gather that was a 
significant topic when I was out.
    You've got an inadequate number of planes to fight fires in 
the coming summer. You've got proposed cuts to personnel to 
fight fires. Now that looks, bad pun, like a pretty combustible 
mix.
    What is the agency going to do to try to achieve those trio 
of objectives, given the fact that in the 3 areas the numbers 
are not moving in a direction that is favorable to us?
    Mr. Tidwell. The first with our preparedness resources 
we're going to mitigate that impact by using call when needed 
resources that we can charge to suppression which just 
increases the cost of suppression which will increase the need 
to transfer funds. But at least we'll be able to continue to 
respond.
    With the hazardous fuels, that money is focused on the wild 
land urban interface. We're going to focus that 685,000 acres 
of work where we feel we can have the biggest return to help 
protect, you know, communities. At the same time with our 
integrated resource restoration proposal that's the funds that 
we will use to be able to do the hazardous fuels work in 
conjunction with the restoration work, you know, outside of the 
wild land urban interface.
    So that's our/their approach. There's no question that 
there's more work that needs to be done. But I'll tell you 
it's, as everyone knows, we're in tough economic times right 
now. We had to make some tough choices.
    But that's why when you look at our budget you need to look 
at all pieces of the request to see how it fits together, to be 
able to respond for us, to be able to move past where we are 
today and be able to move forward in FY 2014.
    The Chairman. Let's just, by way of wrapping up, walk 
through where we are. I think you could hear the concern on the 
committee with Senators again and again coming back to the need 
to get the harvest up and our view that it can be done without 
ravaging the environmental laws. You have said, and it's 
something I surely agree with, that the collaborative approach, 
the kind of thing I saw again last week in John Day and Grant 
County, is the preferred way to go. We appreciate that 
approach.
    On the stewardship issue I think you'll see significant 
support for that. The counties are so desperate now. There are 
some questions about how it ought to unfold. But there is 
strong support for that as well.
    As you heard me say we're going to have the staff go back 
with you to try to find ways with the cost pools account, the 
minerals program, the land ownership program, to see if it's 
possible to squeeze and squeeze and squeeze some more in all of 
those areas in order to get more dollars for the timber 
harvest.
    You heard me walk through, I think, the urgency of looking 
at ways to accelerate and streamline NEPA to try to respond to 
community concerns and figure out how with the hazardous fuels 
numbers that I just walked through with you that we can get 
through this fiscal 2014 fire season, which I am very concerned 
about given sort of the conflation of those 3 trends that 
strike me as very ominous.
    This committee has always worked on these issues in a 
bipartisan way. We are going to continue to do it. We 
understand that for the short term we're going to have to have 
a renewal of Secure Rural Schools for at least a year as we try 
to put together a fresh approach in this area. But we must have 
that fresh approach.
    Senator Murkowski, you know, said when people are hanging 
by their fingernails and they're out of, you know, fingernails. 
That's what we're seeing all over the rural West. These are 
communities that really see themselves if there isn't some bold 
action, you know, taken to bring more balance to our natural 
resource policies which I think the collaboratives let us do, 
the lights are going out. They're going to become sacrifice 
zones. They're, in effect, going to become ghost towns.
    What Senator Murkowski and I have said on our watch is 
we're not going to let that happen. This is too important to 
the people we represent to let that happen. So I understand 
that all these budget matters are not solely within your 
domain. You, as usual, are pretty diplomatic because I know 
that if you were writing budgets you'd write them a little 
differently.
    But the urgency of this is what we're concerned about. So 
we'll follow up in the areas that we talked about.
    Senator Murkowski, anything you would like to add at this 
point? Last word for you?
    Senator Murkowski. Oh, probably not, Mr. Chairman, because 
you give me too much time to reflect. I want to join you though 
in your commitment to working on a way forward with the Secure 
Rural Schools and those communities that we do represent.
    I guess what I'm mulling right now and we should always 
know better than to speak what's on our mind, but I guess I'm 
looking at your testimony, Chief, and listening to what you've 
said in the discussions here. I'm just so concerned that within 
the agency, within the Forest Service we've, kind of, lost the, 
we lost the initial focus of the Forest Service.
    I think when most people think about the Forest Service 
they think of management of the forests. When they think of 
management of the forest you think about how you harvest it. 
When we think of management of our fisheries it's how we make 
sure that we've got sustainable fisheries for the years to 
come.
    But I mentioned in my opening comments that this budget 
looks like it's more appropriate for within the National Park 
Service where there is no harvesting of timber because so much 
of what you're focusing on seems to be these other aspects of 
the forest and jobs for the communities around the forest, not 
necessarily in harvesting, but in tourism and recreation. As I 
mentioned that's not a bad thing, but that is one aspect of it.
    There's been some discussion within our staff about maybe 
the Forest Service has kind of outlived its purpose. Maybe we 
need to look at this and take it out of U.S., excuse me, out of 
the Department of Agriculture and put it within the Department 
of Interior. You have certain aspects of it in terms of 
management of our lands like how BLM manages our public lands. 
The fire fighting aspect of it when you look at it from a 
budget perspective clearly about half your budget goes toward 
fire fighting. I mean is that something that goes into Homeland 
Security. I'm not so keen with that idea.
    Again, I'm just, kind of, talking off the top here. But I 
just feel like we have moved so far away from what the original 
intent, the mission of the Forest Service is. It's the 
communities, the former timber communities, that I represent 
say this to me all the time. They say we're not really quite 
sure what the Forest Service does here anymore.
    There's lots of Forest Service employees. We see a lot of 
them around and they are our friends and our neighbors and the 
coaches of our kid's teams. But we're not cutting any trees 
anymore. We're not seeing those timber related jobs.
    So what is the purpose of the Forest Service? I always take 
them back to its multiple use. But if I can't confirm to them 
that that multiple use also contains a focus on harvesting of 
our timber they're having a tough time believing that multiple 
use is really what it once used to be.
    I don't want us to get to the point where this term 
multiple use is thrown around like we talk about an all of the 
above energy policy or all of the above except the things that 
I don't want to include. Multiple use except the things that I 
don't want to encourage.
    So I'd just like us to think about this, Mr. Chairman, as 
we move forward. Again, you represent some communities that 
have kind of gone through some of this transition over the 
years. But it's something for us to think about it. I know, 
Chief, you probably give a lot of thought to that as well.
    So thank you for allowing me to ruminate a bit.
    The Chairman. Thank you, Senator Murkowski.
    I think, Chief, you heard the 2 magical words in this 
debate that go right to the heart of what this committee wants 
to do. It is consistent with this collaborative approach. That 
you have really, you know, championed.
    I mean what our communities, the small rural communities in 
the West get up in the morning and say, we've worked together. 
This is what the Resource Advisory Committees are all about; we 
come together with this kind of clear mission that it's all 
about multiple use. What's happened over the years is it seems 
that instead of forestry and biologists and people, timber 
industry, environmental folks all come together to practice 
multiple use it feels like we're running a lawyers full 
employment program where we just cannot consummate this kind of 
vision.
    So when Senator Murkowski says the 2 magical words, 
multiple use, that's what the West wants. We think it's 
consistent with the kind of collaborative approach that you're 
talking about. Now what we've got to do is we've got to get 
into some of the specifics which is why I stressed accelerating 
and streamlining NEPA as one clear route to this kind of 
multiple use approach.
    I suspect you'd like to have a chance to say something at 
this point. We're glad to let you have the last word.
    Mr. Tidwell. Mr. Chairman and Ranking Member Murkowski, 
thank you.
    It is multiple use. That is what we strive to do, you know, 
based on what the public wants. We've spent a lot of time 
talking with our publics to find that balance within multiple 
use so that we can do it all.
    We're right up there with the number of recreational 
visitors that come to the national forest as the Park Service 
has. That's always been a big part of the national forest. But 
it's also the management of these lands whether it's the 
mineral resources, whether it's the timber production, whether 
it's the energy production.
    I mean that's part of the national forest and grasslands. 
We do it all. That's the difference.
    When I look at where we are today from where we've been and 
I've been at this now for 35 years. I see for once in my career 
that there is an understanding of a need for us to restore 
these forests. Yes, I've identified over 12 million acres that 
we need to do timber harvest on to be able to get that work 
done.
    We also need to maintain the timber industry and whether 
that's in Southeast Alaska for the jobs that are needed up 
there or if it's in the Chairman's State. There is a 
recognition of that to be able to find the balance to be able 
to do the amount of work that we need to restore the forest and 
be able to maintain industry so there's somebody to be able to 
do the work because otherwise there's no way the public is 
going to be able to pay for it. The costs would just be too 
high.
    So for once we finally, to my view, have reached a place 
where we can really make a difference. If we can just move 
forward with the work that we're doing and to be able to get 
the budget like we're requesting in 2014 to be able to support 
that.
    When I look back on what's happened, the other day I was 
looking at since 1998 our national forest system, the employees 
that are our foresters, our engineers, our folks that work in 
recreation, our staffing has gone down by 35 percent in all of 
those. Then when it comes to timber management it's gone down 
49 percent. But at the same time we're producing about the same 
as what we were doing in 1998. The timber production is down a 
little bit, but if we get back on accelerated restoration we'll 
be right there.
    Those are the efficiencies that we've gained. But those 
have been big shifts, you know, to the agency. This has gone to 
the fire. There's just no question. I mean, that's been 
something that has had an impact on this agency because at the 
same time our staffing in fire has gone up 110 percent. We need 
to be able to do that to respond to the fire seasons that we're 
having today that are so different than when I was a fire 
fighter and through the majority of my/our career.
    Those are the sort of things that we need your help and 
support on to be able to define some ways to move forward. But 
I'll tell you I really do believe that we have the best chance 
to be able to just reframe this debate around natural resource 
management and our national forests once and for all with the 
level of interest, the level of understanding that exists in 
our communities today. When I go out there and I can see 
environmental groups that will stand up with us in a court of 
law supporting a timber sale. Five years ago there's no way I 
would ever have thought that would happen.
    But today that's the change. The idea that when it comes to 
species management like the spotted owl that for so many years 
it was like no, timber harvest impacted owl habitat. Today the 
Fish and Wildlife service acknowledges that in our dry forest 
type we need to get out there and restore those forests because 
fire is the No. 1 impact to spotted owl habitat.
    Those are the change conditions that we have today if we 
can just take advantage of it.
    So you've been very gracious with your time. I appreciate 
the opportunity. I cannot wait to continue to work with you.
    The Chairman. Chief, thanks very much. I remember when you 
told me that the Fish and Wildlife service, in your view, was 
advocating a higher harvest in order to protect the owl. I was 
just trying to imagine how in rural Oregon people would fathom 
something like that.
    So there will be plenty to talk about in the days ahead.
    Senator Murkowski, we're going to work on these issues 
together.
    Chief, we'll be following up in the areas that we talked 
about. Thank you as always for your response. This is the first 
hearing on the budget and you made it possible because you were 
so willing to come together quickly and we appreciate it.
    With that the committee is adjourned.
    [Whereupon, at 11:47 a.m., the hearing was adjourned.]

    [The following statement was received for the record.]

                            Western Governors' Association,
                                    Washington, DC, April 16, 2013.
Hon. Thomas J. Vilsack,
Department of Agriculture, Jamie L. Whitten Building, 1400 Independence 
        Avenue, SW Washington, DC.
    Dear Secretary Vilsack,
    We have been concerned for some time that federal forest lands 
throughout the West are experiencing serious environmental stresses 
that affect the health and vitality of these ecosystems. They are 
overgrown; they exhibit all the symptoms of an unhealthy ecosystem; and 
they demand urgent attention. Now is the time for the U.S. Forest 
Service to accelerate its efforts to promote sound forest management 
policies that maintain ecological balance.
    As you know, millions of acres in states throughout the West have 
fallen victim to bark beetles and other insect and disease plights. 
These epidemics, an overgrowth of vegetation, and the persistent 
drought have increased the number and complexity of wildfires, leading 
to exponentially higher suppression costs. The workload and costs to 
restore these forests and reduce the threat of catastrophic wildfires 
is staggering and necessitates an immediate commitment of financial and 
other resources. Western Governors have passed numerous policies 
acknowledging the extent and severity of our forest health crisis. We 
have met with you and your staff on many occasions and shared our 
concerns, yet we remain dissatisfied with the pace of response.
    It is our understanding that in 2010 only about 30 percent of the 
total U.S. Forest Service budget was allocated to manage our national 
forests. In the mid-1980s, that number was closer to 70 percent. Most 
of the agency's budget is spent on fire suppression, administrative 
support, research, and other programs. The current approach to resource 
allocation results in fewer funds available to manage the more than 193 
million acres of national forests for forest health and fuels 
reduction. To that end, we request a specific accounting of the areas 
in which these funds have been spent. We further request that the U.S. 
Forest Service work to put the private sector to work on vegetative 
management activities on National Forest lands throughout the West.
    We support the goals of the U.S. Forest Service's Restoration 
Strategy, which will increase restoration acres while utilizing the 
wood produced by these efforts. Achieving the goals of this strategy 
will require developing and implementing new, more efficient ways of 
doing business and forest products industries are an integral part of 
this effort. We request that the U.S. Forest Service provide state-by-
state specifics on how many additional acres it plans to treat through 
the Restoration Strategy over the next five years, including how much 
biomass, board feet, and other forest health and restoration projects 
are envisioned. We would also like to work with you to convene a forest 
industry task group to identify ways that the timber industry can 
assist with forest management. Private sector forest professionals are 
a cost- effective tool that the U.S. Forest Service can utilize to 
handle this immense workload. They stand ready and willing to do so.
    By improving forest management through the use of the private 
sector, we also help support our declining forest industry and 
suffering rural economies. Our forest industries are already faced with 
low margins and limited markets; if we lose these industries, any 
restoration efforts will suffer a significant blow. As Governors, we 
support the type of proactive forest management that leads to healthy 
rural communities, improved forest conditions and increased utilization 
of wood products as outlined in the U.S. Forest Service Restoration 
Strategy. In addition, we are committed to successful implementation of 
the Western Regional Action Plan--National Cohesive Wildland Fire 
Management Strategy. We support efforts to fully utilize existing 
mechanisms and provide additional authorities to the U.S. Forest 
Service, including Stewardship End-Result Contracting, grants, 
agreements, local labor force, opportunities to increase biomass 
utilization, and Good Neighbor policies.
    With continued uncertainty due to sequestration and the potential 
for further federal budget cuts, we recognize the financial challenges 
involved in such an endeavor, but believe that engaging the forest 
products industry as a partner can help alleviate some of these 
challenges. Thank you for your consideration.
            Sincerely,
                                           Gary R. Herbert,
                            Governor, State of Utah, Chairman, WGA.
                                         John Hickenlooper,
                   Governor, State of Colorado, Vice Chairman, WGA.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

        Responses of Tom Tidwell to Questions From Senator Wyden
    Question 1. At the hearing, you indicated that the Forest Service 
has reduced the unit cost of generating a million board feet of timber 
by 23%. Can you please provide further information about that and how 
have those cost reductions been brought about?
    Answer. When adjusted for inflation, funding for timber production 
has been reduced by over $185 million since 1998 and there has been a 
reduction of 3,171 full-time equivalents working in forest management. 
During this same time, the agency's unit costs for producing timber 
decreased by 23 percent from $203/MBF (thousand board feet) to $157/
MBF, adjusting for inflation.
    The Forest Service is becoming more efficient through improvements 
in our National Environmental Policy Act analyses and timber sale 
preparation program, an all-lands restoration approach, and 
collaboration with partners, agencies, and Tribes. The Forest Service 
continues to build on these efficiency gains and seeks further 
improvement through the Integrated Resource Restoration pilot program, 
stewardship contracting, and collaborative landscape scale restoration.
    Question 2. We all know the present airtanker fleet is in bad 
shape-to say it lightly. I appreciate you're requesting additional 
funding to modernize these important resources, but your proposal to 
modernize the fleet still remains vague. What models and quantity of 
planes would comprise, regardless of budget, an ideal fleet?
    Now given, that the Agency operates within budget constraints, can 
you tell us what models and quantities of planes you are considering? 
Have you narrowed down some of your options since the release of the 
Large Airtanker Modernization Strategy?
    Answer. In an ideal fleet, the Forest Service would focus on an 
aircraft designed and built for the airtanker mission in the wildland 
firefighting environment. This would be a large airtanker that is 
designed for the maneuver load impacts of the airtanker mission or 
similar missions, that is turbine (turbo-prop or turbo-fan) powered, 
and that can cruise at a speed at or greater than 300 knots (345 miles 
per hour). The aircraft should have a minimum retardant capacity of at 
least 2,000 gallons; 3,000 gallons or more is preferred.
    The agency continues to evaluate models of aircraft suitable for 
large airtankers as part of the Next Generation airtanker contracting 
process-based on capability, effectiveness of the retardant delivery 
system, and cost. Models of aircraft that are being and have been 
evaluated under the Next Generation contracts include the BAE-146, the 
MD-87, the C-130J and the DC-10.
       Response of Tom Tidwell to Question From Senator Landrieu
    Question 1. A few years ago, you made an announcement that USDA 
would promote wood products in building construction and would prefer 
wood in your own buildings. How many buildings have been built that 
have used wood since this announcement? How many buildings do you have 
in the pipeline and are there plans to use wood? Will these buildings 
use the LEED rating system-which discourages the use of wood products?
    Answer. The Forest Service uses wood products frequently in 
construction and we estimate that wood makes up approximately two 
thirds of all building materials used for new facilities and large 
scale renovation projects. In December 2011, the Forest Products 
Laboratory published ``Science Supporting the Economic and 
Environmental Benefits of Using Wood and Wood Products in Green 
Building Construction.'' This report summarizes the scientific findings 
that support the environmental and economic benefits of using wood and 
wood products in green building construction. The publication 
recognizes that wood is a renewable resource, helps mitigate climate 
change, promotes healthy forests, and is a green construction material. 
Since 2011, when the USDA policy on utilizing wood was formally 
directed, the following new buildings have been built:

  <bullet> Angeles National Forest Supervisor Office, CA
  <bullet> Camino Real Ranger Station, Carson National Forest, NM
  <bullet> Corvallis Forest Science Laboratory and Siuslaw National 
        Forest HQ Office, OR
  <bullet> Arcata Lab, CA
  <bullet> Juneau Lab, AK
  <bullet> Wood Products Insect Laboratory, MS
  <bullet> White Mt. Forest Supervisor's Office, NH
  <bullet> Francis Marion Ranger District Office, SC
  <bullet> Deschutes Forest Supervisor's Office, OR
  <bullet> Appalachian Ranger District Office, NC
  <bullet> Walker Ranger District Office, MN

    We have an estimated five buildings planned. All of these buildings 
will use wood. The facilities currently in design that will be going 
for Green Globes certification are:

  <bullet> Research Triangle Park Forestry Science & Assessment Center, 
        NC
  <bullet> Enoree Ranger District Office, SC
  <bullet> Missoula Forestry Sciences Lab Renovation and Addition, MT
  <bullet> McCall Administrative Site Consolidation (Payette Forest 
        Supervisor's Office & Ranger District Office), ID
  <bullet> Clinch Ranger District Office, VA

    While the U.S. Green Building Council's Leadership in Energy and 
Environmental Design (LEED) certification does give points for the use 
of wood, we prefer to use the Green Globes certification. New Forest 
Service building construction projects for regional offices, 
supervisor's offices, district offices, visitor centers, and research 
offices or laboratories where the building is 10,000 gross square feet 
or greater in size must be registered and certified using either the 
LEED rating system (minimum Silver certification), Green Globes 
(minimum Two Green Globes certification), or other third-party 
certification system. All other buildings, whether new or major 
renovations, must be designed to incorporate sustainable principles 
into the systems and components appropriate to the building type and 
project scope. This requirement applies to buildings on an individual 
basis, and the most recently issued version of the third-party 
certification system must be used. We encourage construction projects 
to be designed and constructed with domestically harvested wood 
products, ideally locally sourced, and from National Forest System 
lands, whenever practicable and feasible.
      Responses of Tom Tidwell to Questions From Senator Cantwell
    Question 1. Some of my constituents have raised concerns about the 
implementation of the Small Business Administration's 30-70 rule on 
set-aside sales that requires not more than 30 percent of the timber 
volume be resold to large interests. It is my understanding that when 
the Forest Service offers a timber sale, it appraises the sale for its 
potential market value and sets the minimum bid that it will accept 
based on that appraisal. And one factor in the appraisal is the cost 
that the purchaser (small or large) will absorb to bring the timber to 
a manufacturing facility. Higher haul-cost results in lower profits for 
the purchaser. Appraisals are made to the nearest mill, which in most 
instances is a large mill because the number of small business mills 
has declined. Why does the Forest Service not appraise these set-aside 
sales to the nearest small business mill that would more accurately 
reflect the actual cost? Small businesses will not bid on set-aside 
sales if the cost for hauling the timber to a small business mill is 
not feasible.
    Answer. The Forest Service Small Business Timber Sale Set-Aside 
Program, developed in cooperation with the Small Business 
Administration, is designed to ensure that qualifying small businesses 
have the opportunity to purchase a ``fair share'' of National Forest 
System (NFS) sawtimber offered for sale.
    The Forest Service recognizes that changing the appraisal point for 
set-aside sales may better reflect the transportation costs for some 
small business sawmills and independent loggers, allowing them to bid 
on more sales.
    With the number of mill closures over the last few years, we need 
to evaluate our current policy to see if we need to adjust our 
appraisal process to factor in the loss of small business mills. If we 
determine a need for change, we will conduct a public review and 
comment process before any changes are made.
    Question 2. Timber sales must be set aside for small business when 
its participation falls below a certain threshold. The Forest Service 
calculates this participation level based on small business 
participation in full and open sales over the previous five year 
period. The Forest Service, however, does not count the timber volume 
on Stewardship contracts, which impact the future market share 
calculation for conventional timber sales. It is my understanding that 
stewardship timber sales have grown in every region each year; and some 
market areas only have Stewardship sales, resulting in a continuous 
small business timber purchase deficit. Why does the Forest Service not 
count the timber volume purchases by small business on Stewardship 
Timber contracts when it calculates the small business set-aside?
    Answer. The Small Business Administration (SBA) and the Forest 
Service agreed not to include volume from stewardship contracts or 
Integrated Resource Timber Contracts (IRTC) in the Set-Aside Program 
when stewardship contracting was initially authorized. SBA and the 
Forest Service also agreed to track the volume of sawtimber sold 
through IRTCs. The use of IRTCs has increased to the extent that, in 
some market areas, only stewardship sales are being offered; thus, no 
sales are available to be set-aside for preferential bidding by small 
businesses when the Set-Aside Program is initiated (``triggered'') on a 
market area. SBA has requested inclusion of the Stewardship Integrated 
Resource Timber Contracts in the Small Business Timber Sale Set-Aside 
Program.
    We plan on beginning the public review and comment process to 
consider adding IRTC to our SBA Set-Aside Program as soon as 
stewardship contracting is reauthorized.
    Question 3. Trails on national forest lands serve the recreational 
needs of about 50 million hikers, cross country skiers, horseback 
riders, off-road vehicles, bicycles and other recreationists every 
year. These trails improve health and fitness, provide access to 
natural areas and beauty, and increase community pride. They are also 
an economic driver. According to the Outdoor Industry Association, 
trail-based recreation supports 768,000 jobs, and contributes $80.6 
billion to the nation's economy annually.
    Unfortunately, the condition of these trails is, in some cases, not 
very good. Currently, only one-third of all National Forest trails are 
maintained at a minimum standard condition. This has resulted in a 
range of impacts, including unsafe trails, ecological degradation and 
loss of access.
    One of the main reasons for trails being in poor condition is that 
funding for trails maintenance has not kept up with demand. In 1980, 
the Forest Service budget contained $793 in maintenance funding per 
mile of trail. However, in 2013 we will spend only about $491 per mile 
of trail with sequestration--a 38% decrease in trail funding despite 
continued growth in trail length and visitor hours. The result is a 
trail maintenance backlog that has grown steadily during the last 
decade and now stands at $314 million.
    What is your strategy for addressing the trail maintenance backlog, 
and will this budget provide you with the resources to reduce the 
backlog in 2014?
    Answer. The FY 2014 President's Budget proposes $82,531,000 for 
Trails. Constrained budget authority, including the sequestration, will 
necessitate prioritization of available resources between all of the 
critical programs that the Forest Service delivers including the Trails 
program. We continue to strengthen partnerships in trail stewardship, 
particularly those that help deliver youth programs. We will also 
continue to focus on management and protection of the National Scenic 
and Historic Trails.
    We propose funding in FY 2014 to maintain and repair approximately 
48,784 trail miles, including repair and reconstruction of bridges and 
trails damaged by natural disasters. Approximately 20 percent of this 
work will be accomplished through the use of volunteers. In FY 2014, 
the agency will address approximately 20 percent of the total trail 
system miles through a unified program of work; however, it will not 
reduce the backlog of trail maintenance.
    In FY 2012, we maintained 59,274 miles of system trails, out of a 
total of over 158,000 miles. When trails receive adequate maintenance, 
we can provide a higher quality experience for visitors to the national 
forest.
    Question 4. The Legacy Roads and Trails Program has been in 
existence for five years, and there is a new report by two 
environmental groups that says the program has been a huge success and 
is moving the Forest Service's restoration agenda forward. The 
President's FY 2014 budget request proposes to subsume the Legacy Roads 
and Trails Program into the Integrated Resource Restoration (IRR) 
program.
    Question 4a. Can you discuss the Legacy Roads and Trails role in 
the overall restoration agenda of the Forest Service and the agency's 
plans for ensuring this road and trail work continues to remain a top 
priority moving forward?
    Question 4b. Despite the program's five-year record of successful 
accomplishments, it seems the President's budget is essentially a 
proposal to cut or eliminate Legacy Roads and Trails by subsuming it 
into the IRR. What benefits would there be if this program was kept 
independent, as a complementary program to the IRR, similar to the 
current process for the CFLRP?
    Answer 4a. The Legacy Road & Trail program has played an important 
role in the agency's overall restoration efforts by concentrating funds 
on the repair and maintenance of National Forest System (NFS) Roads and 
Trails that are contributing to watershed degradation, and on the 
decommissioning of roads and trails that are not needed for the 
management or enjoyment of NFS lands.
    As we move this program into the Integrated Resource Restoration 
(IRR) program, these funds will continue to be focused on important 
resource restoration work, while allowing local line officers to direct 
funding to the most urgent restoration needs.
    Answer 4b. Activities previously accomplished under the Legacy 
Roads and Trails activity would continue under the IRR, including 
urgently needed road and trail decommissioning, long-term road storage, 
repair, and maintenance and associated activities. Road and trail 
repairs required due to storm disturbances in local communities that 
are urgently needed to protect community water resources are also an 
important consideration for funding within IRR.
    We will continue to examine the benefits of the Legacy Roads and 
Trail budget line item by monitoring the performance of road and trail 
related restoration work completed with all funding sources. The agency 
will compare past accomplishments with Legacy Road and Trail funds to 
current and future accomplishments with IRR funds.
    Question 5. I am also interested in how IRR would be implemented in 
the Tongass National Forest in southeast Alaska. Over the past five 
years, the Forest Service has invested $7.9 million annually in tourism 
and recreation, a billion dollar industry that employs 10,200 people. 
The Forest Service has invested $8.6 million annually in fishing, 
another billion dollar industry that employs 7,200 southeast Alaskans. 
And the Forest Service invested $23.4 million annually in timber and 
roads, a money-losing industry that only employs 107 people. That 
translates to spending $775 per year per tourism job, $1,194 per year 
per fishing job, and $218,692 per year per timber job.
    Question 5a. How would this funding allocation change if IRR is 
implemented nationally?
    Question 5b. Because IRR is designed to prioritize restoration and 
fire resiliency (and fire is not an issue in the Tongass), how do you 
anticipate the effects of IRR in the Tongass? Do you anticipate that 
funding will leave the Tongass for other forests?
    Question 5c. Do you anticipate that the Forest Service would use 
its discretion to increase funding for fish, wildlife and tourism, 
which support the region's economy?
    Answer. Funding for forest products, legacy roads and trails, 
wildlife and fisheries habitat management, vegetation and watershed 
management, and hazardous fuels in non-Wildland Urban Interfaces (non-
WUI) contribute to restoration on National Forest System (NFS) lands. 
With national Integrated Resource Restoration (IRR) authority, 
allocations would reflect priority needs for landscape and watershed 
restoration that meet the social, ecological, and economic aspects of 
managing the NFS. Under IRR, instead of funds being specifically 
allocated through individual budget line items, these activities would 
be funded through the single budget line item for IRR. Line officers 
would now have the flexibility to fund work that is concentrated where 
a combination of restoration issues can be addressed, and with the 
blend of activities necessary to sustain, maintain, and restore 
ecological integrity. Through the pilot authority, the agency is 
working to allocate IRR funds to meet restoration needs, and no longer 
allocating funds in the traditional budget line items. With a nation-
wide IRR appropriation, the agency would however, continue to fund and 
support core and historical operations and management functions to 
prevent the decline in the health and condition of the national forest 
and grassland ecosystems.
    IRR is a budget consolidation tool designed to help promote 
restoration activities on NFS lands. Management of the non-WUI is 
included along with several other activities in IRR. The regions will 
be allocated funds based on restoration work that can be accomplished. 
The regions will determine what mix of activities must be implemented 
to achieve high priority work, as not all restoration activities are 
applicable in every location. Management of non-WUI areas is just one 
way to achieve restoration goals. On the Tongass National Forest, the 
current budget emphasizes the forest programs for which continued 
viability and growth will be critical in the transition effort 
including visitor services, timber, restoration, and fisheries. In 
order to further build on recent restoration success, such as the 
Harris River restoration project, the Region and the Tongass National 
Forest are also aggressively pursuing outside partnership support to 
increase the level of restoration work. Due to the critical importance 
of salmon populations to the economic health of southeast Alaska, the 
Tongass National Forest has worked with a number of partners to develop 
a detailed Tongass five-year Watershed/Fish Restoration Plan, for 
pursuing restoration of several important salmon bearing streams.
       Responses of Tom Tidwell to Questions From Senator Schatz
    Question 1. Hawaii's forests are home to more than 10,000 native 
species including over 60 endangered avian species that rely upon these 
tropical forested areas. Still, Hawai`i is one of eight states without 
a National Forest.
    Can you please speak to the value of tropical forest conservation 
for all Americans? Further, could you please discuss the importance of 
programs such as the Land and Water Conservation Fund in helping to 
protect more tropical forest lands?
    Answer. The Forest Service recognizes the importance of tropical 
forest conservation and continues to work in Hawaii through its 
Research and Development and State and Private Forestry Programs. In 
2012 the Forest Legacy Program, which is funded by the Land and Water 
Conservation Fund (LWCF), provided a $2 million grant for the purchase 
of a conservation easement to protect over 3,000 acres on the Hamakua 
Coast on the Big Island.
    Question 2. Since 2007, the Forest Service has maintained the 
Hawaii Experimental Tropical Forest (HETF), one of the few U.S. 
research sites dedicated to enhancing our understanding of conservation 
biology and tropical forest management. The research at HETF is 
essential to advancing our understanding of the impact of environmental 
change on our tropical forests, combating the effects of invasive 
species, and preserving and protecting Hawai`i's delicate environment.
    How does the President's Fiscal Year 2014 budget prioritize and 
support the U.S. Forest Service's tropical forestry research, including 
activities at the Hawaii Experimental Tropical Forest?
    Answer. The President's Budget supports tropical forestry research 
in Hawaii and the Asia-Pacific region at the same level as FY 2013, 
including efforts to (1) determine the potential impacts of and 
possible mitigations for climate change on terrestrial, riparian, 
aquatic, and near-shore marine ecosystems of high and low-lying 
islands, (2) develop improved practices and decision support tools to 
better manage at-risk species and landscapes, (3) increase the capacity 
of local agencies and governments to effectively deal with resource 
management challenges, and (4) enhance understanding of cultural 
knowledge and practices and their integration into research and 
management.
    Our Facilities Program priorities for FY 2014 are to support the 
safety and health of all users of our existing infrastructure and to 
judiciously defer all new construction, including phased projects that 
include new construction to subsequent years. The development of the 
Pu'u Wa'awa'a research area infrastructure is a phased project 
including site development, utilities and buildings. The site survey 
was completed in FY 2013 and the National Environmental Policy Act 
(NEPA) analysis is in progress. This site remains a priority but 
further construction is deferred in FY 2014.
    Question 3. Hawaii's pioneering research on tropical forestry also 
provides the United States with the knowledge and expertise about 
tropical forest management that it can share with its partners around 
the world to help them improve their conservation and management 
practices. This research is particularly important as the United States 
seeks greater engagement with countries in the Asia Pacific, including 
Indonesia and the Philippines, and could be used to broaden and deepen 
our foreign relations with countries in the region around tropical 
forest conservation and restoration.
    How does the U.S. Forest Service leverage its tropical forestry 
research, including the research developed at the Institute of Pacific 
Islands Forestry, to help America's partners be better stewards of 
their tropical forests? What authorities might improve the U.S. Forest 
Service's ability to share its research and cooperate with other 
countries?
    Answer. The Forest Service seeks to enable its Pacific Basin 
partners by hands-on mentoring and capacity building. Staff from the 
Institute of Pacific Islands Forestry:

  <bullet> Work with and provide mentoring to island foresters in the 
        design, execution, analysis, and interpretation of research 
        studies aimed at answering real-world resource management 
        questions asked by local managers. Forest Service scientists 
        assist foresters with integrating research findings into 
        management plans.
  <bullet> Conduct introductory and field sampling workshops to engage 
        host countries in the Sustainable Wetlands Adaptation and 
        Mitigation Program. It is designed to provide policy makers in 
        the Asia/Pacific region with credible scientific information 
        needed to make sound decisions related to the role of tropical 
        wetlands in climate change adaptation and mitigation 
        strategies. It is a collaborative effort of the Forest Service, 
        the Center for International Forestry Research (Indonesia), and 
        Oregon State University with support from the U.S. Agency for 
        International Development.
  <bullet> Engage in the U.S. Department of Defense (DOD) research 
        funded by DOD in Hawaii to understand issues of fire management 
        and invasive species. Since Hawaii is home to so many life 
        zones and ecosystems representative of other tropical 
        locations, Forest Service researchers use findings to interact 
        with a broad range of tropical land managers and researchers 
        from the Asia-Pacific region and new world tropics.
  <bullet> Use Hawaii's model ecosystems to understand how warming and 
        drying affect ecosystem processes. This research is leveraging 
        participation in international climate change discussions about 
        managing not just tropical forests but forests in general in 
        response to changing climate.

    The Pacific Southwest Region's State & Private Forestry and the 
Washington Office's International Programs established a program for 
Professional Internships in Pacific Terrestrial Island Ecosystem 
Management. The focus is twofold: (1) provide low-cost, on-island 
continuing education courses in resource management and related 
subjects and (2) provide intensive professional internships.
    The Forest Service needs no additional authorities to share its 
research and cooperate with other countries.
    Question 4. Hawaii's tropical forests are important natural and 
cultural resources, and Native Hawaiians have employed conservation 
practices that can be very informative in the context of modern 
forestry management and science. Can you speak towards the importance 
of outreach to native communities and outline some particularly helpful 
programs or initiatives in this regard?
    Answer. Outreach to native communities is essential to understand 
and, where possible, integrate into modern management the cultural 
practices that supported sustainable use of natural resources before 
European colonization, and to develop the next generation of native 
natural resource managers. The Forest Service is an active partner or 
participant in multiple educational and outreach ventures in Hawaii, 
including the following:

  <bullet> The Hawaii Youth Conservation Corps is supported in part by 
        Forest Service dollars ($51,000 in 2012), with non-Federal 
        matching funds provided by Kupu, the local non-profit 
        organization that administers the Hawaii YCC program.
  <bullet> Scientists with the Pacific Southwest Research Station's 
        Institute of Pacific Islands Forestry provide AmeriCorps 
        interns with mentoring and hands-on experiences in forestry 
        research and education.
  <bullet> Forest Service scientists and professionals mentor 10 to 15 
        undergraduate students each summer in partnership with the 
        University of Hawaii at Hilo's Pacific Internship Programs for 
        Exploring Science.
  <bullet> Over 700 Hawaii K-12 children have participated in the 
        Forest Service's More Kids in the Woods-Starts with a Seed 
        program, which is aimed at increasing their outdoor experiences 
        and environmental literacy.
  <bullet> Over 200 K-12 kids at the Laupahoehoe Community Public 
        Charter School participated in the GreenSchools! Program 
        through a grant from the USDA Forest Service, including energy 
        audits of the school and learning about high efficiency 
        alternatives for the school.
  <bullet> The Forest Service co-sponsors Project Learning Tree 
        workshops for educators with a focus on native forest ecology 
        and restoration.
  <bullet> Forest Service staff, in partnership with Na Pua Noeau, a 
        University of Hawaii Native Hawaiian Gifted and Talented 
        Program, lead two-week summer courses focused on topics such as 
        climate change, human impact on the environment, natural 
        resource management, ahupua`a land management systems, and the 
        importance of preservation, conservation, and restoration.
        Responses of Tom Tidwell to Questions From Senator Udall
    Question 1. Chief Tidwell, please clarify how you intend to meet 
the goals of treating more acres as stated in the Forest Service's 
report, Increasing the Pace of Restoration and Job Creation on National 
Forests, especially in the wildland urban interface, with a 37% 
reduction in funding in the hazardous fuels program?
    Answer. Restoration work is accomplished with a number of funding 
sources, including Integrated Resource Restoration (IRR) as well as 
Hazardous Fuels. The President's Budget continues to propose full 
implementation of IRR as a way of improving efficient delivery of many 
National Forest System programs throughout the Nation. The reduction in 
fuels funding will result in fewer acres of hazardous fuels treated, 
but still allows us to treat 685,000 of the highest priority acres. 
This reduction is just one of many difficult tradeoffs that had to be 
made, while fulfilling our commitment to request funding for the 10-
year average for suppression funding.
    Question 2. Chief Tidwell, thank you for such a strong commitment 
to the Land and Water Conservation Fund (LWCF) and the Forest Legacy 
Program in the 2014 budget. As you know, LWCF and Forest Legacy are 
critical tools that allow for the strategic acquisition of parcels 
within National Forest boundaries. By connecting landscapes, these 
parcels will provide management efficiency, protect water quality, and 
make it easier to fight and contain wildfires. How can we ensure that 
the three Colorado projects on the FY 14 budget list-the Uncompahgre 
National Forest, the Continental Divide National Scenic Trail, and the 
Sawtooth Mountain Ranch Forest Legacy Project-will be funded and 
completed this year so we can better manage our forests?
    Answer. The Land and Water Conservation Fund (LWCF) acquisition 
projects proposed in the FY 2014 President's Budget are the highest 
priorities for the Forest Service for FY 2014. The Forest Service is 
prepared to proceed with the field work necessary to complete a Federal 
acquisition of the Continental Divide National Scenic Trail project and 
the Ophir Valley project on the Uncompahgre National Forest. The Forest 
Service and the State of Colorado stand ready to complete these 
acquisitions as soon as an appropriation is made available.
    The Forest Legacy project list published in the FY 2014 President's 
Budget is in priority order, with the Sawtooth Mountain Ranch project 
ranked 19 out of 28 projects. Ultimately, the number of Forest Legacy 
projects that receive funding will be dependent upon the amount of 
money that is appropriated for the fiscal year in question. The Forest 
Legacy grants provided to the States are for an initial period of two 
years. Therefore, if the Sawtooth Mountain Ranch project receives 
funding in FY 2014, we do not expect that it would close in the same 
fiscal year. However, we will provide whatever assistance possible to 
help Colorado close as quickly as is possible if this project receives 
funding.
    Question 3. Chief Tidwell, I am concerned, as I'm sure you are, 
about the chronic underfunding of LWCF, whose Outer Continental Shelf 
revenues are deposited into the U.S. Treasury each year but are 
unfortunately spent in unrelated ways. How will you work with me and my 
colleagues to ensure that these dollars go where they belong to 
conserve the places we need protected?
    Answer. The FY 2014 President's Budget proposes $177 million in 
Land and Water Conservation Fund (LWCF) funding for the Forest Service, 
with $84.8 million for the Forest Legacy program and $92.3 million for 
the Land Acquisition program. Of the $177 million total, $118 million 
would be discretionary funding and $59 million is a new proposal for 
mandatory funding to be transferred from the Department of the Interior 
(DOI).
    Mandatory funding will allow the Agency to engage in a multi-year 
planning process that will strengthen local and community partnerships 
in conservation and optimize valuable investments by leveraging other 
Federal and non-Federal funds. Mandatory funding will provide the 
financial certainty that will keep the interest of partners and 
landowners which would otherwise be lost to multi-year delays and more 
attractive offers from developers.
    The increased funding of LWCF is a key component of the President's 
America's Great Outdoor (AGO) Initiative. AGO also emphasizes increased 
coordination across Federal agencies and with State and local 
governments to ensure the most important areas are conserved. To 
promote increased coordination, the FY 2014 President's Budget proposes 
that $57 million of the Forest Service's $177 million LWCF funding 
support Collaborative Landscape Planning (CLP) projects. Through CLP, 
the Forest Service is working with DOI and its bureaus to identify 
landscapes where the agencies can collaboratively respond to locally 
supported planning efforts to protect critical ecosystems before 
fragmentation occurs.
    Conserving large-scale landscapes provides multiple resource and 
economic benefits to the public, including cleaner drinking water, 
recreational opportunities, reduced wildfire risk, protected habitat 
for at-risk and game species, and jobs generated on and off forests and 
grasslands. Acquiring these lands will reduce expenditures associated 
with boundary management and fire suppression for the Forest Service 
and surrounding communities and will increase public access to and 
enjoyment of public lands.
      Responses of Tom Tidwell to Questions From Senator Murkowski
    Question 1. Please explain how sequestration and the budget 
rescission will impact your equipment purchases, contracting of 
aircraft and helicopters, and the number of firefighters you will have 
available this fire season. Is the agency adequately prepared to handle 
another fire season, like the one it faced in 2012, why or why not?
    Answer. The sequestration of funds will directly impact our ability 
to maintain existing firefighting capability. Specifically, 
firefighting resources could be reduced by 500 firefighters, and 50 to 
70 engines. We will ensure adequate aerial firefighting and other 
resources during 2013 by using additional call-when-needed (CWN) 
aircraft, engines, and crews, which can be charged to suppression. CWN 
resources average 150 to 200 percent of the cost of exclusive use 
resources, thus potentially increasing our suppression costs for FY 
2013. In addition, suppression is funded below the 10-year average, 
increasing the chances that we will need to transfer funds from other 
accounts to pay for firefighting.
    Question 2. Modernizing the firefighting fleet is important to 
ensuring the agency has the capacity to fight wildland fire. This 
committee has been very concerned about whether the Forest Service has 
a viable, cost-effective strategy for replacing the legacy fire air-
tankers. I do want to recognize that you have included a request for 
$50 million for air-tanker modernization and I commend you for 
including that. If it does get funded, how will those funds be 
expended?
    Answer. The additional funding will be used to cover a portion of 
the increased costs of the next generation large airtanker contract 
costs as well as some of the costs of converting the seven C-27Js from 
a military mission to the airtanker mission.
    Question 3. In your budget justification, the Forest Service 
includes a table outlining the potential maximum number of firefighting 
aircraft resources that may be contracted. Included in this table are 
C27Js which you have characterized as a medium airtanker that would 
have a different operational mission than the large airtankers. If you 
are able to obtain the C27Js from the Department of Defense, what 
mission would these aircraft fulfill? How many of those aircraft would 
be utilized to drop retardant and how many would be utilized to deliver 
firefighters (smokejumpers) to fires? How much would it cost the Forest 
Service to bring these C27Js online to fight fires? How would the 
Forest Service operate and maintain these aircraft? What are the 
expected operation and maintenance costs of C27Js?
    Answer. The seven C-27Js would be operated as medium airtankers (as 
a component of the overall airtanker fleet) and carry the same 
retardant load as our legacy P2s. The C-27J aircraft provides a modern 
(2 years old or newer) aircraft capable of multiple wildland fire 
missions including aerial application of fire retardant, smokejumper 
deployment, cargo delivery for fire crews, and transport of incident 
management teams. We are still working to develop cost estimates for 
these aircraft.
    Question 4. In 2009, Congress enacted the FLAME Act to establish a 
reserve fund in the treasury to provide a mechanism to address the 
escalating costs of emergency fire suppression. The idea was to allow 
the agencies to fight major fires without taking the drastic step of 
transferring funds from other essential non-fire programs. The FLAME 
fund was supposed to be funded in addition to the suppression account 
which has been funded using the 10-year rolling average. In this 
budget, however, you propose to take the suppression account and FLAME 
together to fund the 10-year rolling average of suppression costs. Why 
is the Forest Service including the FLAME Fund to fund the 10-year 
average of fire suppression costs?
    In your testimony at the hearing you stated that: ``the FLAME Act 
has not had the success we had hoped for.'' What did you mean by this 
statement? Please explain.
    Answer. Using the 10-year average for funding fire suppression is 
based on long-standing practice and an agreement between the 
Administration and Congress, and is in line with other types of 
calculations done to predict funding needs for similar types of 
programs. However, the Administration recognizes the increasing 
instance of severe fires and the budget impacts that have resulted from 
the cost of suppressing those fires. Other methodologies for 
calculating fire suppression funding are being explored. We will 
continue to work with the Office of Management and Budget and Congress 
to identify appropriate ways to budget for the increasing costs of 
wildfire suppression and preparedness.
    The FLAME funds were designed to pay for the cost of large and 
complex fires and as a reserve when suppression funds in Wildland Fire 
Management are exhausted. The FLAME Act indicates that the request for 
a FLAME fund should be based on an estimate of the amount needed for 
fires that meet the size and severity criteria in the Act. The FY 2012 
request for FLAME was based on previously designated FLAME fires and 
subsequent requests were based on this level.
    Question 5. I understand that turning the Stewardship Contracting 
authority into a permanent authority is a top priority of the agency. 
The data for FY 2012 suggests that fully 25 percent of all of the saw 
timber volume offered by the Forest Service was through stewardship 
contracting. Back in 2006 your agency published draft regulations to 
ensure that sawtimber volume offered through stewardship contracting 
would count towards the Small Business Set-Aside program and that you 
would eliminate the Structural Change Re-computations in the existing 
Small Business Timber Sale Set-aside Program.
    Now that more than a quarter of the saw timber offered by the 
Forest Service is transacted through stewardship contracts and you are 
seeking to make this a permanent authority; when are you going to 
publish the final Stewardship/Small Business Set-aside regulation? Will 
you commit to me that these regulations will published in the Federal 
Register within the next 60 days in a manner that reflects the proposal 
released in 2006?
    Answer. The Forest Service published a Proposed Directive and 
request for public comment on August 1, 2006, regarding proposed 
changes to its Small Business Timber Sale Set-Aside Program (Set-Aside 
Program) direction. The proposed changes included removing the 
structural change recomputation requirements, and subjecting 
Stewardship Integrated Resource Timber Contracts (IRTC's) to the Set-
Aside Program procedures except for the Small Business Administration's 
(SBA) 30/70 rule requirements. Per SBA's regulations, no more than 30 
percent of the included sawtimber volume on a set-aside sale may be 
delivered to other than small business. Comments to the proposed 
changes were generally split along industry size class. Since that 
time, new issues have arisen, such as appraisal point (i.e. appraising 
all set-aside sales to the nearest small business mill versus 
appraising them, per current policy, to the nearest mill regardless of 
size class). While the agency cannot commit to a specific time frame, 
these new issues are being considered.
    Question 6. The Committee has been informed that challenges still 
remain and future actions at the federal level may be necessary to 
better coordinate the approval process for the continued operation of 
existing hydropower projects and support for growth of new hydropower. 
Specifically, I have been informed by hydropower owners and operators 
that federal agencies, including the Forest Service, continue to assert 
and exercise mandatory conditioning authority over lands outside of 
their jurisdiction and without a connection to the project. 
Furthermore, there are cases where two or more federal agencies, 
contained within different departments, regulate the same activity 
under the relicensing process for a single hydropower project. Often, 
this results in conflicting requirements on the owner/operator that 
increase both delays and project costs.
    What steps can the Forest Service take to promote greater 
efficiency, predictability and balance in the process for relicensing 
hydropower projects--both within the agency and in coordination with 
other agencies?
    Answer. The Forest Service continues to coordinate with other 
Federal and State agencies to provide predictable information to 
support the delivery of an efficient and predictable process for 
relicensing hydropower projects and to support negotiations towards 
multi-party settlement agreements.
    Nationally, we are taking steps with the Bureau of Land Management 
(BLM) to share energy program staff and to increase efficiency and 
communication between agencies. In FY 2014, we are proposing to add a 
second energy position in the headquarters staff to increase efficiency 
at processing. With BLM, we train our agency energy coordinators 
together. We are attending energy conferences to enhance our 
understanding and relationships with project applicants, and we work 
with them closely when processing their applications. We also work with 
applicants to determine what is necessary for efficient construction 
and maintenance of proposed energy projects, including the use of 
helicopters, or road construction.
    The Forest Service Alaska Region (R10) is processing over 30 hydro-
electric projects, of which 26 are Federal Energy Regulatory Commission 
proposals. We have maintained our R10 energy staff to facilitate 
processing of these proposals. We have participated in the State's 
effort to develop an Integrated Resource Plan for energy development in 
southeast Alaska, and have sponsored the Energy Cluster in the 
Southeast Alaska Economic Development as part of our Transition 
Framework.
    Question 7. At the hearing, you were asked by Senator Wyden about 
administrative management models and what type of management model 
would be more likely to increase the timber harvest levels on the 
national forest system-collaboration with continued direct Federal 
administration or turning over administrative management responsibility 
to the private sector (i.e. trust land model). You answered the 
collaborative approach. The trust land management model is our Nation's 
most ancient and durable resource policy. There are numerous examples 
across the West of the successes of this management model in producing 
sustainable timber harvests and revenue. Please provide the data that 
demonstrates that collaboration on the national forest system as a 
management model is more successful in increasing sustainable timber 
harvest levels than trust land management.
    Answer. The statutes and regulations that govern trust lands are 
different from those for Federal timber sales. Most States are mandated 
to generate revenue for schools from their State trust lands. This 
usually results in States selecting the larger and more valuable trees 
to harvest resulting in higher volumes per acre and lower unit costs.
    Federal timber sales are integrated with other resource objectives 
under the multiple use mandate. Developing integrated restoration 
projects, which benefit a range of uses, is best achieved through 
collaboration, which reduces the potential for appeals and litigation. 
The White Mountain Stewardship 10-year contract (nearing completion) 
and the ``4FRI'' projects in northern Arizona are examples of the 
success of collaboration accelerating the acres and volume being 
treated on National Forest System lands.
    The Forest Service continues to explore ways in which it can be 
more efficient and effective and accomplish more restoration 
activities. As a result, the Forest Service has decreased costs for 
preparing and implementing timber sales by 23 percent over the last 15 
years, reducing the unit costs for producing timber from $203/MBF 
(thousand board feet) to $157/MBF, adjusting for inflation. The agency 
has achieved some of these efficiency gains through collaboration in 
our National Environmental Policy Act analyses and planning as well as 
improvements in the timber sale preparation program and using an all-
lands restoration approach.
      Responses of Tom Tidwell to Questions From Senator Barrasso
    Question 1. The Forest Service budget proposes additional fees of 
$1 per A-U-M for family farmers and ranchers to recover the costs 
associated with NEPA analysis and issuing grazing permits. However, 
when I talk to both ranchers and agency employees back in Wyoming they 
attribute the increase of costs to renew a permit to excessive 
litigation against the agency.
    What percent of the Forest Service System line item budget is spent 
on litigation?
    Answer. The direct costs of litigation are the fee payments that 
the Forest Service makes under the Equal Access to Justice Act (EAJA). 
The Forest Service paid EAJA fees in the amount of $565,000 in FY 2012, 
$1,472,000 in FY 2011, and $113,000 in FY 2010. In FY 2012 the EAJA 
fees paid were less than 0.036 percent of National Forest System (NFS) 
total discretionary appropriations (EAJA can be paid by any Forest 
Service budget line item) and did not have an appreciable effect on 
program funding for the agency as a whole. Individual units of the NFS, 
however, may experience significant funding impacts from specific 
court-ordered EAJA awards. Similarly in FY 2011, EAJA fees paid were 
less than 0.01 percent of NFS appropriations and did not have an 
appreciable effect on nation-wide program funding. Refer to the EAJA 
Special Exhibit, pp.14-34 to 14-37 in the FY 2014 Budget Justification 
for a detailed listing of these cases.
    Indirect costs associated with litigation, such as staff time spent 
responding to litigation and the cost of project delays due to 
litigation, are not tracked within the Forest Service. Our accounting 
system does not allow for an easy or efficient way of keeping indirect 
litigation cost information separate from other expenses associated 
with a project's development, such as the project's initial design, 
analysis under the National Environmental Policy Act (NEPA), and 
project implementation. Costs, including staff time and resources 
associated with litigation, are charged to the appropriation that funds 
a project (e.g., vegetation management, wildlife habitat improvement, 
recreation management), as are other costs associated with its 
implementation.
    Question 2. The Forest Service announced that as a result of the 5% 
sequester cut, timber production would be cut by 15%.
    If Congress increased funding specifically for timber production by 
10% can the Forest Service increase total board feet by 30%?
    Answer. Approximately 51 percent of the funding for Forest Products 
is directed at preparing, offering and selling new timber sales, which 
is the basis for the output of timber volume sold. The remaining 
funding pays for administering the harvest of timber sales already 
under contract and handling walk-in business from citizens for firewood 
permits and special forest products. The agency is contractually 
obligated to administer existing contracts and we will continue to 
provide personal use permits for people to have access to firewood and 
other special forest products. Thus, a 5 percent reduction in the total 
Forest Products program is actually a 10 percent reduction in the funds 
available to prepare and sell new timber volume.
    Increases in Forest Products funding are directed to preparing and 
offering new timber sales with an expected increase in timber volume 
sold in the first year of the increase. As timber volume sold increases 
the need for additional funds in contract administration increases in 
subsequent years. The existing contracts for timber sold are a 
requirement for the Forest Service to fund, including the recently sold 
sales in FY 2012's accomplishment. The Agency would also continue its 
public fuel wood and personal forest products program. After meeting 
these two obligations, any additional funding would be applied to 
preparing new timber sales. The Forest Service would not be able to 
achieve a 30 percent increase in its timber sales offerings with a 10 
percent funding increase.
    Question 3. We spoke about the way the Forest Service counts acres 
burned by wildfires as acres treated when these number are reported to 
Congress.
    Will you provide me with how many acres the Forest Service treated 
in 2012 not including those acres burned by wildfires?
    During 2012, what was the cost per acre treated when the wildfires 
acres are removed?
    Answer. The total number of acres treated to reduce hazardous 
fuels, other than those by wildfire, on lands administered by the 
Forest Service in 2012 was 1,897,802.
    The treatment cost per acre varies widely, due to the type of 
treatment, the part of the country, the accessibility of the site, and 
numerous other factors. In general, mechanical treatment of hazardous 
fuels ranges from $50/acre to more than $4,000 per acre. Prescribed 
fire treatment of hazardous fuels ranges from $30/acre to $1,900/acre.
    Question 4. Does the Forest Service count personal use firewood in 
its board feet sold total?
    If yes, will you also provide me with the total board feet sold by 
the Forest Service in 2012 including only sawtimber, pulpwood, and 
useable biomass? Will you provide me the prices received for these same 
materials?
    Answer. Yes, fuelwood (firewood) volume is included in the overall 
timber volume sold. The table below displays the Sold Volume and Sold 
Value (in thousands of dollars) for FY 2012.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question 5. During the hearing you mentioned in response to Senator 
Johnson's question about land acquisitions that the agency needed to 
buy land to improve border management efficiencies.
    Please provide me data and examples of how managing a border with 
private or state land is more expensive than the cost of the private or 
state land.
    Answer. Forest Service land and resource management activities, 
occurring at or near National Forest System land (NFS) boundaries, 
require that Forest Service boundary lines be surveyed and marked. This 
requirement is in part to protect neighboring landowners from 
encroachment by NFS activities, and in part to ensure that Federal 
lands are protected and maintained.
    Land acquisitions that result in a reduction of NFS boundary 
mileage result in a reduction the costs of Forest Service survey, 
boundary line marking and maintenance, and activities at or near NFS 
boundaries, including timber sales and fuels treatments. In designated 
areas-for example, in wilderness areas-the cost of a boundary line 
survey could exceed the property cost of an inholding, especially in 
remote terrains where use of non-motorized tools might be required.
    Savings are not limited to acquisitions of inholdings. Any land 
acquisition that results in a reduction of NFS boundary miles, could 
result in a decrease of Forest Service costs. Some examples of proposed 
land acquisition projects that are expected to reduce Forest Service 
costs include:

    Montana Legacy Completion Project--Consolidation of a checkerboard 
pattern of lands, and thereby a large reduction of boundary miles, 
could reduce Forest Service survey costs by $336,000 per maintenance 
cycle (approximately every 10 years).
    Florida Longleaf Initiative--A reduction of approximately five 
miles of boundary line could reduce Forest Service survey costs by 
$80,000, at approximately $16,000 per mile.

    Question 6. You stated the importance of the timber industry to 
achieving the management needed on the National Forests as the same 
work left to the agency would be cost prohibitive. I agree with your 
assessment. Yet the budget proposes reducing timber and fuels funding. 
Help me understand this contradiction?
    Answer. As a result of the national effort to reduce Federal budget 
levels, the agency's funding request for restoration, timber harvest, 
and hazardous fuels treatments has been reduced from the FY 2013 
President's Budget level to $756,788,000 for Integrated Resource 
Restoration (IRR) and $201,228,000 for hazardous fuels treatments. 
Funding for Collaborative Forest Landscape Restoration Program was kept 
level. As a result, the restoration funding level proposed for FY 2014 
is estimated to yield 2.38 billion board feet of timber volume sold, 
and the hazardous fuels funding level proposed is estimated to yield 
685,000 acres treated in the Wildland Urban Interface. The Forest 
Service recognizes that maintaining a strong forest industry through 
selling timber is integral to helping accomplish forest restoration 
work and continues to identify and implement efficiencies in all 
aspects of forest restoration and hazardous fuels work.
    Question 7. The Executive Summary of the 2012 ``Large Air Tanker 
Modernization Strategy,'' page 2, second paragraph, states, ``In 
response to this wildfire activity, the Forest Service's airtanker 
fleet has flown an average of 4,500 flight hours, dropping almost 20 
million gallons of retardant annually in the last ten years.''
    Were the average gallons dropped last year approximately the same 
as the average for the past 10 years?
    Was the average number of fire commander requests for large air 
tankers for this past fire season greater than the 10-year average?
    For the past two fire seasons, what was the average number of 
requests for large air tankers that the National Interagency 
Coordination Center (NICC) had to deny for lack of tanker resources?
    When awarded this year, will the next generation air tanker 
solicitation provide the forecast number of needed large air tankers 
within the next five years to meet the 10-year average gallons of 
retardant delivered without the need for additional solicitations in 
the next five years?
    Answer. There were 26.7 million gallons of retardant dropped by the 
airtanker fleet in 2012, which is above the 10 year average.
    In 2012, the National Interagency Coordination Center (NICC) 
responded to 851 requests for large airtankers. We have not collected 
this type of information at the national level prior to 2012, so we are 
not able to compare the number of requests for large airtankers in the 
past fire season to a 10-year average.
    An average of 25 to 30 percent of the airtanker requests were not 
filled by the NICC in the past two fire seasons. Airtanker requests are 
prioritized based on values at risk. Informed decisions were made by 
fire managers to prioritize airtankers on initial attack and incidents 
with threat to life, property, critical infrastructure, and natural 
resource values versus fires with low values at risk.
    The next generation large airtanker contract, as well as potential 
agency-owned airtankers (C-27Js), will provide the 18 to 28 next 
generation large airtankers the Forest Service believes will maintain 
airtanker response and capability identified in the ``Large Airtanker 
Modernization Strategy.''
    Question 8. The Forest Service has a commendable goal of 
controlling all wildfires that utilize fixed-wing air tankers within a 
so-called ``initial attack.''
    In a successful large air tanker ``initial attack,'' how many large 
air tanker missions are normally flown?
    What is the USFS goal, as a per cent of initial attack actions, for 
initial attack success?
    What was the average success rate in the past two fire seasons?
    How does that compare with the 10-year average for initial attack 
success?
    When initial attack was not successful, on average, how many large 
air tanker missions are flown on those fires?
    Answer. The agency does not have data at the level of specificity 
needed to answer the first part of this question. The number of large 
airtankers used, and the number of large airtanker missions flown, 
varies greatly on initial attack, depending on resources available, the 
conditions on the fire, and the location of the fire-among numerous 
other factors.
    We strive for a 98 percent success rate with initial attack. In the 
past two fire seasons, our success rate for initial attack was 96.8 
percent, which is 1.1 percent less than the 10-year average.
    The agency does not have data at the level of specificity needed to 
determine how many airtankers were flown on fires when the initial 
attack was not successful. The number of airtanker missions flown 
varies greatly on initial attack, depending on resources available, the 
conditions on the fire, and the location of the fire--among numerous 
other factors.
    Question 9. The National Interagency Fire Center (NIFC) has 
utilized the Very Large Air Tankers (VLAT) for delivery of large 
quantities of retardant in last couple fire seasons. The ``Large Air 
Tanker Modernization Strategy'' and your comments at the hearing 
indicate that the VLAT should continuously be in the mix of available 
airtanker assets. Does the Forest Service annual budget request for 
fixed wing air tankers include funding for VLAT assets?
    If not, how are the VLAT air tankers funded?
    Does the funding process enable VLATs to be available for the 
foreseeable future as part of the needed mix of air tankers?
    Answer. That is correct. The Forest Service believes the VLAT is 
part of the firefighting aircraft fleet, and it is considered a 
specialty airtanker. The President's Budget request for Wildland Fire 
Management (WFM) covers the aviation needs for the agency. The VLAT 
assets are considered part of the available contractor provided 
aviation assets. The funding process does enable VLATs to be available 
for the foreseeable future as part of the needed mix of airtankers.
    Question 10. The Modular Airborne FireFighting System (MAFFS) C-130 
firefighting capabilities are stated to be ``surge'' assets. Under the 
Economy Act, when these DOD assets are utilized by the Forest Service, 
the Service must provide complete cost reimbursement to DOD.
    When C-130 units are activated, are they funded from annual 
appropriations, or are they funded from supplemental budget requests 
under the Flame Act.
    Prior to activating C-130 MAFFS units, does the Forest Service 
first determine if other air tanker assets that have equivalent or 
greater capability are reasonably available, including those on ``Call 
When Needed'' arrangements?
    Answer. The C-130 units are funded out of the Wildland Fire 
Management, Suppression account annual appropriations. FLAME Act funds 
may be used in years in which the Suppression account is fully 
depleted.
    Yes, MAFFS resources are used when contractor and cooperator 
resources are fully committed, not reasonably available, or activity is 
expected to peak and/or be sustained at a high level for a period of 
time.
    Question 11. The Forest Service gains access to needed fixed-wing 
aerial firefighting aircraft through ``Call When Needed'' (CWN) 
contracts. Are these CWN aircraft funded as part of the USFS annual 
budget, or do they also get funded through supplemental funding under 
the Flame Act?
    Answer. Call-when-needed assets are funded through the Wildland 
Fire Management, Suppression account annual appropriations. FLAME Act 
funds may be used in years in which the Suppression account is fully 
depleted.
    FLAME funding is transferred to the Suppression account after a 
declaration is approved by the Secretary and used in the same manner as 
funds appropriated to Suppression. FLAME funding is not 
``supplemental.'' It is used to cover the costs of large fire events 
that meet criteria for a Secretarial declaration.
    Question 12. Current plans call for the Forest Service to take 
possession of a certain number of C-27 aircraft that have been declared 
excess to DOD needs.
    How many C-27 aircraft does the Forest Service require to meet its 
long-term plans?
    If the Forest Service assumes the responsibility for C-27 aircraft, 
what will be the role of those aircraft within authorized Forest 
Service responsibilities?
    Will the Forest Service operate C-27 aircraft with its own 
employees?
    What is the Forest Service life-cycle cost estimate for operation 
and maintenance of the C-27?
    If the Forest Service utilizes C-27 aircraft for air tanker 
operations, will the current MAFFS I or MAFFS II units function in the 
C-27?
    If the current MAFFS II units will function in the C-27, will the 
Forest Service assign first priority for use of those MAFFS II units to 
the C-27, or will the Department of Defense (DOD) C-130s have priority 
for utilization of MAFFS II units?
    Answer. The Forest Service is ready to take seven C-27Js as 
outlined in the National Defense Authorization Act. Long-term plans 
will depend on interest from the U.S. Coast Guard and other Federal 
agencies in the C-27J. The C-27Js will be used as medium airtankers. 
The Forest Service will not operate C-27J aircraft with its own 
employees; the agency intends to contract for operation and maintenance 
of the aircraft. The Forest Service is developing the life cycle cost 
estimates.
    The Mobile Aerial Firefighting System I (MAFFS I) never met 
retardant delivery requirements. MAFFS I units are no longer maintained 
and refurbishment would be cost prohibitive. MAFFS II, even if scaled 
in size for the C-27J, would severely restrict the C-27J's payload. The 
Forest Service intends to contract for a new retardant delivery system 
for the C-27J that optimizes the aircraft's payload. The MAFFS II units 
will not fit in the C-27J, so there will be no conflict with the DOD 
MAFFS C-130s.
       Responses of Tom Tidwell to Questions From Senator Heller
    Question 1. The State of Nevada has been asked by the Forest 
Service to repay $239,000 in payments made under the Secure Rural 
Schools program. These funds were paid to the state and subsequently 
distributed to counties according to state law prior to the 
implementation of sequestration. Can you please provide the legal 
justification for the request to return these funds?
    Answer. All government funds apportioned in FY 2013 are subject to 
sequestration. There are only a few exceptions. While funding for 
Secure Rural Schools (SRS) payments is based on the level of FY 2012 
receipts, section 102(e) of the SRS Act directs that the funds be paid 
after the end of the fiscal year and therefore it is budget authority 
for FY 2013 and subject to sequestration. The Balanced Budget and 
Emergency Deficit Control Act of 1985 (BBEDCA), as amended, requires 
that sequestration be taken at the budget account level, and applied 
equally to each program, project, and activity (PPA) in those accounts. 
In the case of SRS, the relevant account is the Forest Service 
Permanent Appropriations account, which includes two PPAs for SRS: one 
comprising the FY 2013 budget authority from receipts in FY 2012 (the 
``receipts PPA''), and the other comprising additional FY 2013 budget 
authority provided from Treasury to cover the shortfall in receipts 
necessary to make the full SRS payments (the ``Treasury payments 
PPA''). In calculating the sequestered amount, BBEDCA repeatedly refers 
to the amounts for a ``fiscal year'' or ``that year'' (2 U.S.C. 901a). 
Thus, consistent with the application of sequestration across all USDA 
programs, and across the government as a whole, the amount of the 
sequestration is based upon the full budgetary authority in the 
receipts PPA and the Treasury payments PPA for the entire fiscal year, 
not on the amount remaining available on March 1, 2013, the date of the 
sequestration order.
    Question 2. Nevada, the Forest Service is home to both the Bi-state 
and Greater sage grouse populations. An Endangered Species listing of 
the sage grouse would have a devastating impact on the economy and way 
of life in every county in Nevada. As I am sure you are aware, one of 
the biggest threats the biggest threat to sage grouse habitat on public 
lands is wildfire, particularly in overcrowded pinyon-juniper 
woodlands. What steps are the Forest Service taking to protect sage 
grouse habitat and to prevent an ESA listing for the bird?
    Answer. In considering the Forest Service role in sage grouse 
conservation it is important to note that the Forest Service only has 8 
percent of existing sage grouse habitat. (The Bureau of Land Management 
has 51 percent of existing habitat, private landowners have 30 percent, 
and other ownerships make up the remaining 11 percent.) National Forest 
System (NFS) lands in the Intermountain Region, which includes Nevada, 
Utah, northwestern Wyoming, and southern Idaho, have 70 percent of the 
Forest Service portion of high priority sage grouse habitat.
    The Forest Service is working cooperatively with our Federal, 
State, and interested non-governmental partners to address Bi-State and 
Greater sage grouse conservation needs. The Forest Service participated 
in the development of a Near-Term Greater Sage-grouse Conservation 
Action Plan as a member of the Range-wide Interagency Sage-grouse 
Conservation Team.
    Currently, the Forest Service is engaged in a planning process that 
includes National Environmental Policy Act disclosure and public input, 
to determine whether to amend 20 Land and Resource Management Plans to 
incorporate sage-grouse conservation measures, with a target decision 
date of September 2014. The goals of this planning process are to: 
ensure that adequate regulatory mechanisms are in place; to reduce 
risks to sage-grouse and its habitat; maintain ecosystems on which 
sage-grouse depend; and to conserve habitat necessary to sustain sage-
grouse populations to an extent that precludes the need for its listing 
under the Endangered Species Act.
    While the Forest Service is engaged in the planning process, we 
have developed interim conservation recommendations based upon the 
following principles:

          1) Protect remaining expanses of unfragmented habitat.
          2) Minimize further loss of fragmented habitat.
          3) Enhance and restore habitat conditions to meet sage-grouse 
        life history needs.

    These recommendations supplement the recommendations for sage-
grouse contained in the Chief's letter to Regional Foresters in Regions 
1, 2, 4, 5, and 6 for sage-grouse and sagebrush conservation (July, 1, 
2010). Another goal of the interim recommendations is to enhance 
consistency in management of activities on National Forest System land 
with the BLM Instructional Memorandum (IM) No. 2012-043: Greater Sage-
grouse Interim Management Policies and Procedures (Dec. 22, 2011). The 
Forest Service also completed interim conservation recommendations 
(Fall 2012) accompanying a list of 2011 and 2012 NFS projects for 
Greater Sage-grouse and their habitats.
    The Forest Service would not characterize wildfire as the greatest 
threat to sage grouse habitat on public lands, particularly in 
overcrowded pin-on-juniper woodlands. Pin-on-juniper encroachment into 
adjacent sage brush habitat is a significant issue relative to the loss 
of sage brush habitats. This is primarily due to the lack of 
disturbance processes in those habitats. The wildfire threat is more 
relevant to the invasion of exotic annual grasses into sage brush 
stands (e.g. cheatgrass), and resulting frequent, uncharacteristic 
wildfires that convert sage brush to annual grassland communities. Most 
of this occurs on lower elevation BLM lands. The processes resulting in 
the loss of sage brush habitats due to pin-on-juniper encroachment and 
annual grassland invasion are distinct and different processes.
    Question 3. Does the Forest Service recognize the State of Nevada's 
primacy when it comes to water allocation and water law in Nevada?
    Answer. The Forest Service respects the rights of States, including 
Nevada, to appropriate water, and the role of States in administering 
water rights. The agency actively participates in State water right 
adjudications and other proceedings.
    The Forest Service claims reserved water rights for consumptive or 
nonconsumptive needs on reserved lands directly related to securing 
favorable conditions of water flow or to furnish a continuous supply of 
timber under on the Organic Administration Act of 1897 authority 
including:

  <bullet> Domestic water needed for Ranger Stations, fire stations, 
        work centers, housing, and other facilities constructed and 
        maintained for administering National Forest System (NFS) 
        programs for watershed protection and timber production.
  <bullet> Water needed for fire protection and control.
  <bullet> Water needed for constructing and maintaining access roads 
        for timber production and watershed protection activities.
  <bullet> Water needed for irrigation of tree nurseries, seed 
        orchards, and other facilities devoted primarily to the supply 
        of timber or watershed protection.
  <bullet> Water needed for maintaining Forest Service riding and pack 
        stock used in the administration of the NFS timber resources 
        and for watershed protection.
  <bullet> Water needed in connection with special uses where the user 
        is engaged in activities carried out for watershed protection 
        or timber production on the NFS.
  <bullet> Water needed in the form of instream flows sufficient to 
        maintain the stability of stream channels for favorable 
        conditions of water flow and protection against the loss of 
        productive timber lands adjacent to the stream channels. This 
        includes the volume and timing of flows required for adequate 
        sediment transport, maintenance of streambank stability, and 
        proper management of riparian vegetation.

    The Forest Service claims prior appropriation water rights from the 
State for other Forest Service water uses and permitted programs under 
the Multiple-Use Sustained-Yield Act of 1960: ``It is the policy of the 
Congress that the national forests are established and shall be 
administered for outdoor recreation, range, timber, watershed, and 
wildlife, and fish purposes.'' These uses would include water rights 
for campgrounds, ski area snowmaking, livestock water, and in-stream 
fish flows.
    Question 4. Can you please provide the reasoning behind incidents 
where the Forest Service has required water from permittees prior to 
issuing permits?
    Answer. The Forest Service mission is ``to sustain the health, 
diversity, and productivity of the Nation's forests and grasslands to 
meet the needs of present and future generations.'' Fulfilling this 
mission means sustaining water, as well as soil, vegetation, fish, 
wildlife, and other resources, all while providing outdoor recreation 
and local economic opportunities such as permitted programs like 
grazing and ski areas.
    Forest Service policy is to claim possessory interest in water 
rights in the name of the United States for water uses on National 
Forest System (NFS) lands as follows:

  <bullet> Claim water rights for water used directly by the Forest 
        Service and by the general public on the NFS.
  <bullet> Claim water rights for water used by permittees, 
        contractors, and other authorized users of the NFS, to carry 
        out activities related to multiple use objectives. Make these 
        claims if both water use and water development are on the NFS 
        and one or more of the following situations exists: (1) 
        National Forest management alternatives or efficiency will be 
        limited if another party holds the water right; and (2) Forest 
        Service programs or activities will continue after the current 
        permittee, contractors, or other authorized user discontinues 
        operations.

    Question 5. Since this is a hearing on the FY14 budget, including 
the Recreation Program budget, I understand that in building external 
partner support for the program and the program budget, that the Ski 
Area Recreational Enhancement Act was passed in 2011 but is awaiting 
full implementation based on the need for the specific policies and 
regulations. Since these investments in activities by our external 
partners will help build capacity in your program in the upcoming 
fiscal year, (not to mention creating additional jobs in our rural 
communities), can you give me a status on where the implementing regs 
are in the process and when you expect to have them ready for approval?
    Answer. The Forest Service will be implementing the Ski Area 
Recreational Opportunity Enhancement Act (SAROEA) through four 
regulatory and directive revisions:

  <bullet> A Forest Service Manual (FSM) 7330 amendment for Aerial 
        Adventure Courses to provide technical standards for design, 
        construction, and operation of zip lines, rope courses, and 
        similar facilities. We anticipate issuing this amendment by 
        June 2013.
  <bullet> A direct final rule to change the definition of a ski area 
        to conform to the SAROEA amendment. A Federal Register Notice 
        has been drafted and is under review.
  <bullet> An amendment to FSM 2340 to implement nondiscretionary 
        elements of the SAROEA. The amendment is being drafted and 
        should be issued by June 2013.
  <bullet> A proposed amendment to FSM 2340 with additional guidance on 
        implementation of SAROEA. A Federal Register Notice explaining 
        the proposed amendment has been drafted and publication for 
        public notice and comment is anticipated in summer 2013.
        Responses of Tom Tidwell to Questions From Senator Flake
    Question 1. On page 10 of the budget justification, the Forest 
Service notes, ``More than 70,000 communities are now at risk from 
wildfire, and less than 15,000 have a community wildfire protection 
plan or an equivalent plan.'' What's more, experts predict worsening 
fire seasons, as evidenced by the more than 9 million acres burned in 
2012. Yet, the Forest Service is proposing a reduction in the Hazardous 
Fuels line item and a $38.5 million increase in funding for land 
acquisition. Why is the Forest Service more focused on acquiring 
additional lands, as opposed to better management of the lands under 
its authority?
    Answer. Effective land management, including reducing hazardous 
fuels, is accomplished through a variety of means. Land acquisition can 
help reduce management costs by consolidating landownership, avoiding 
further fragmented development within forest boundaries which can 
exacerbate fire, insect, and disease management challenges. Land 
acquisition is one tool we have to promote the long-term health and 
sustainability of the national forests and grasslands and thereby 
protect taxpayer investments in National Forest System lands. 
Integrated Resource Restoration, an integrated approach to land 
management, will further sustain, maintain, and make landscapes more 
resilient and thus protect communities. We are working through the 
National Cohesive Wildland Fire Management Strategy to increase the 
number of Community Wildfire Protection Plans and implement several 
other measures to restore and maintain resilient landscapes, create 
fire-adapted communities, and respond to wildfires.
    Question 2. Instead of increasing land acquisition funding, would 
it be a more prudent expenditure of funds to prioritize funding for 
wildfire protection thereby conserving additional lands that might 
otherwise be destroyed by wildfires?
    Answer. Funding to support land acquisition that can help reduce 
management costs by consolidating landownership and avoiding further 
fragmented development within forest boundaries is prudent as it helps 
to reduce fire dangers and assists with management of insects and 
disease. Through the National Cohesive Wildland Fire Management 
Strategy, we are promoting measures to restore and maintain resilient 
landscapes, create fire-adapted communities, and respond to wildfires. 
Continued funding of land acquisition can assist in promoting these 
measures by avoiding further fragmented development within forest 
boundaries which can exacerbate wildfire.
    Question 3. As you know, the State of Arizona's recent experience 
with historically significant wildfires has impacted forest ecosystems, 
including watersheds for much of the rest of the State, and upended the 
lives of many residing near national forest system lands. The Schultz 
Fire in June 2010 consumed 15,000 acres on the Peaks in the Coconino 
National Forest. The following fire season, 2011, was extraordinarily 
destructive, as the Wallow Fire, the Horseshoe Two, and the Monument 
Fire, among others, burned in the State. The Wallow Fire encompassed 
538,000 acres and surpassed the Rodeo-Chediski Fire as Arizona's 
largest. The Horseshoe Two, Monument, and Murphy Fires damaged another 
300,000 acres, and destroyed more than 60 homes, in southern Arizona.
    The August 2011 Wallow Fire Rapid Assessment Team (RAT) report 
attempted to quantify anticipated recovery effort expenditures. The 
costs across the various categories summed to more than $101 million. 
Approximately $34 million was expended in the initial Burn Area 
Emergency Rehabilitation efforts. While the RAT product was an early 
review, the conclusions provide a meaningful reference in evaluating 
the status of the rehabilitation and mitigation measures. What were the 
contemplated expenses, and actual expenditures to date, for the 
following categories referenced in the RAT document: roads and 
infrastructure; watersheds; fires and fuels; range resources; forest 
vegetation; fisheries; and recreation trails and facilities?
    Answer. The Wallow Fire Rapid Assessment Team identified 
approximately $100 million of needed rehabilitation projects in the 
burned area through FY 2018. To date, the Forest has received over $6.0 
million for recovery efforts. The table below displays contemplated and 
actual expenditures through FY 2012 for Wallow Fire recovery efforts 
(dollars presented are in thousands).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question 4. I have been informed the Coronado National Forest, 
after the Horseshoe Two, Monument, and Murphy Fires, received $2.5 
million in 2011, $1.4 million in 2012, and $123,000 in 2013, in 
recovery funding. Has an attempt been made to qualify and quantify the 
post-fire exigencies? If so, what is the difference between the 
anticipated and actual expenditures?
    Answer. We have quantified the post fire needs for those fires, 
which we anticipated to be $4.8 million. The difference between the 
anticipated need and expenditures to date is roughly $800,000.
    Question 5. What is the status of the Schultz Fire recovery effort?
    Answer. Coconino National Forest (CNF) signed an Environmental 
Assessment last summer on the Forest efforts, which includes up to 462 
acres of treatments on the Forest in 15 miles of channels to reduce 
sediment transport. Concurrent work on CNF and private property will 
begin this spring.
    All Burned Area Emergency Rehabilitation treatments were completed 
in 2011, which included five rounds of rehabilitation efforts 
implemented by the Forest Service at a cost of about $4.1 million. 
Treatments included mulching, seeding, berm construction, and other 
emergency measures to protect life, property, and sensitive natural 
resources. Long-term rehabilitation projects continue, including over 
$1 million invested in road and trail reconstruction, recreation site 
repair, noxious weed treatments, hazard tree removal, reforestation, 
and similar recovery efforts.
    Question 6. The Arizona Game and Fish Department (AGFD) on March 9, 
2013, approved a resolution expressing strong objections to the 
implementation of the travel management rule (TMR). Likewise, the 
Western States Sheriff's Association (WSSA) unanimously enacted a 
resolution on March 21 declaring opposition to the application of the 
TMR by the United States Forest Service and the Bureau of Land 
Management.
    The AGFD policy states, in part, ``it is unacceptable for a federal 
multiple use land management agency to establish regulations that the 
public cannot understand; that the federal land manager cannot 
effectively enforce; or that the land manager imposed upon state and 
local enforcement authorities an unreasonable and unenforceable mandate 
that denies reasonable and sufficient access to citizens.'' The WSSA 
requests ``an immediate cessation of further implementation of the 
Travel Management Plan on all public lands until a comprehensive review 
of its impact to counties, and the residents and visitors therein, can 
be conducted..'' The WSSA further resolved to encourage your agency to 
``enter into meaningful discussions with the leadership of the nation's 
western counties in an effort to form agreements that will ensure 
Sheriffs retain adequate and appropriate access to public lands in 
order to provide service and the public is not restricted from historic 
and traditional uses of public lands.''
    Will the AGFD, the WSSA, other agencies and organizations, and 
individual citizens, be provided opportunities to further contribute to 
the planning and implementation of the TMR, including in those USFS 
units with published motor vehicle use maps?
    Answer. Yes, we will offer ongoing opportunities for contributions 
to the planning and implementation of the Travel Management Rule. In 
Arizona approximately 30 percent of the Motor Vehicle Use Maps (MVUMs) 
are complete, allowing for initial input on the vast majority of MVUMs 
in the State. Furthermore, 36 CFR 212.54 states, ``Designations of 
National Forest System (NFS) roads, NFS trails, and areas on National 
Forest System lands pursuant to Sec.  212.51 may be revised as needed 
to meet changing conditions. Revisions of designations shall be made in 
accordance with the requirements for public involvement in Sec.  
212.52, the requirements for coordination with governmental entities in 
Sec.  212.53, and the criteria in Sec.  212.55, and shall be reflected 
on a motor vehicle use map pursuant to Sec.  212.56.''
    The Forest Service will also continue to provide opportunities for 
Federal, State, county, and other local governmental entities, Tribal 
governments, and the public to contribute to the planning and 
implementation of the Travel Management Rule, as is required per the 
regulations noted below.
    The Travel Management Rule (36 CFR 212) was developed using an open 
and public process to follow the direction in Executive Order 11644 
(Use of Off-road Vehicles on the Public Lands) and the later Executive 
Order 11989 (Off-Road Vehicles on Public Lands). The Forest Service has 
completed travel management under Subpart B on over 80 percent of NFS 
lands, creating a MVUM as the legal document to inform the public and 
for law enforcement. Law enforcement vehicles and uses are exempted 
under 36 CFR 212.51.
    With regard to new MVUMs, 36 CFR 212.52 states in part, ``The 
public shall be allowed to participate in the designation of NFS roads, 
NFS trails and area on National Forest System lands and revising those 
designations pursuant to this subject. Advanced notice shall be given 
to allow for public comment, consistent with agency procedures under 
the National Environmental Policy Act on proposed designations and 
revisions.''
    Additionally, 36 CFR 212.53 states, ``The responsible official 
shall coordinate with appropriate Federal, State, county, and other 
local governmental entities and Tribal governments when designating 
National Forest System roads, NFS trails, and areas on NFS lands 
pursuant to this subpart.''
    Question 7. Your testimony and the Forest Service budget 
justification heavily focus on restoration, namely ``restoring 
ecosystems.'' To that end, the budget justification highlights, among 
other things, the importance of forest health, the resiliency of forest 
landscapes, the need to restore fire-damaged forest, and to reduce the 
risk of wildfires. The Forest Service further elaborated stating, ``By 
restoration, we mean restoring the functions and processes 
characteristic of healthier, more resistant, more resilient ecosystems, 
even if they are not exactly the same systems as before.'' What are the 
characteristics of a healthier, more resistant, more resilient 
ecosystem that the Forest Service is trying to achieve?
    Answer. The Forest Service is trying to achieve healthy and 
resilient ecosystems that will have greater capacity to absorb natural 
disturbances and large scale threats to sustainability, especially 
under changing and uncertain future environmental conditions, such as 
those driven by climate change and increasing human uses.
    Restoration is the process of assisting the recovery of an 
ecosystem that has been degraded, damaged, or destroyed. Creating a 
forest ecosystem which is healthier, more resistant, and more resilient 
involves mimicking the process found in a natural ecosystem which is 
capable of overcoming stressors or disturbance events. By using 
restoration strategies, forest stands can be developed to be more 
diverse, in age and species, and better able to withstand stressors. 
For example, a forest consisting of a single tree species, a 
monoculture, and little age difference is susceptible to a complete 
loss should an insect or pathogen succeed in exploiting that forest 
structure. Added to this risk would be other stressors which might 
equally affect all of the trees. Increasing the diversity of age and 
species of forests has the additional benefits of: increasing habitat 
diversity, increasing resistance to invasive species, and improved 
ability for regeneration of the forest. In addition to forests, the 
National Forest System contains millions of acres of grasslands which 
require restoration to ensure ecosystem resiliency.
    In forested areas where fire is a natural process this involves 
using fire to maintain the forest type and structure. In many 
ecosystems, removing smaller trees to reduce the likelihood of crown 
fires, thinning mature vegetation to reduce the spread of fire from 
tree to tree, and removal of material on the forest floor through 
prescribed fire or mechanical means is necessary to ensure that the 
important components of the ecosystem survive a wildfire by reducing 
the intensity of the wildfire. In ecosystems that have long fire return 
intervals that may function ecologically post wildfire through self-
regeneration, treatment may still be necessary to protect communities 
or other values at risk. These treatments are often similar to the 
treatments in forest types that had more frequent fire.
    Question 8. Has the National Forest System exhibited the 
characteristics of a healthy, more resistant, more resilient ecosystem 
in the past? If so, when did the Forest System exhibit those 
characteristics?
    Answer. Overall, our national forests were healthier, more 
resistant, and more resilient when they were originally established as 
Forest Reserves in the late 1800s. These lands (later to become 
National Forests) were set aside for timber production, watershed 
protection, and forest protection. A series of catastrophic forest 
fires that occurred during the late 1800s and early 1900s led to 
efforts to suppress wildfires. Specifically, the Weeks Law of 1911 and 
the Clark-McNary Act of 1924 led to improved fire suppression by States 
and the Federal government. However, by removing fire from fire-
dependent ecosystems, the trajectory of forest development was altered.
    Beginning in 1990, the effective suppression of fire ignitions 
combined with a large reduction in timber harvested led to an overall 
increase in forest biomass and fuel loads. Many of our National Forests 
are now more susceptible to fire, less resilient, and less resistant to 
threats. In addition to fire, forests face a suite of stressors, 
including: climate impacts, increased human population in and around 
forests, and increased threats from invasive species.
    The history of eastern National Forests differs from western 
National Forests. The Weeks Law of 1911 gave the Federal government 
authority to acquire land to protect watersheds and navigable streams. 
Many of the eastern National Forests-acquired mostly in the early 20th 
century-were areas in very poor condition. Through the restoration 
efforts of the Forest Service and others, these lands were reforested 
and saw a dramatic improvement in their ecosystem health. Like the 
western National Forests, the eastern National Forests face increased 
stresses/threats from climate change, human populations, and invasive 
species.
    In many cases, our forests and watersheds are well-functioning and 
resilient. In a significant portion of our national forests, however, a 
history of fire suppression or other legacy conditions necessitate that 
the Forest Service take a more active management approach to restore 
conditions and functions, to protect communities and their drinking 
water, and to sustain other values including recreation and wildlife. 
This can be accomplished in part through increasing the scale and 
effectiveness of treatments, and over time, accelerating the pace of 
projects to treat more acres and employ more people in the work of 
restoring the national forests.
    Question 9. On page 10 of the budget justification, the Forest 
Service notes that during the fire seasons in the 1930s ``more than 30 
million acres burned on average each year.'' In the 1940s that number 
remained high at approximately 12 to 15 million acres-a level some 
experts predict we could see in the near future. Yet, the budget 
justification also notes that from the 1960s through the 1980s, when 
``the Forest Service furnished up to a quarter of the Nation's supply 
of wood,'' the average annual acres burned were well under 5 million 
per year, approaching a relatively paltry 2.983 million acres in the 
1980s. How do these fire statistics factor into the Forest Service's 
restoration efforts? What decade is the Forest Service trying to 
emulate with its restoration efforts?
    Answer. The relatively low annual acres burned of the 1960s and 
1970s correlates with the cooler climate as well as landscape 
conditions (following a period of fire activity) that enabled the 
agency to be more successful in suppressing fires during that time 
frame. The majority of timber harvest in the 1960s to 1980s occurred in 
OR, WA, and southeast AK, where fire occurrence is historically low. 
The agency's current focus is on vegetation treatment to protect 
communities and other values at risk and to improve landscape 
resiliency with wood as a byproduct.
    Forest Service restoration focuses on re-establishing the 
composition, structure, pattern, and ecological processes necessary to 
facilitate sustainability, resilience, and health under current and 
future conditions rather than a point in the past. It would be 
difficult to achieve a condition from the past because human settlement 
patterns and a changing climate have already altered the landscape. The 
Forest Service is focused on the future and has prioritized the 
Wildland Urban Interface and the priority watersheds for treatment that 
collectively will aid in the management and suppression of the current 
and large fires.
    Question 10. In the budget justification overview, the Forest 
Service explains, ``Over the course of the FY 2012 fire season, our 
average suppression cost fell from the 5-year average of $448 per acre 
to $312 per acre, saving about $377 million.'' Please explain how 5-
year suppression costs fell, when 2012 saw one of the worst fire 
seasons with more than 9 million acres burned?
    Answer. The overall costs of suppressing wildfires have increased, 
but we did see a decrease in costs per acre of suppressing large 
wildfires. This is an indicator of how our risk-based approach in 
deciding how to manage individual fires is successful in not only 
minimizing the exposure to our firefighters but reducing costs. Without 
these changes, the 2012 fire season would have been even more 
expensive.
    Question 11. On page 2 of the budget justification, the Forest 
Service claims, ``The Forest Service was founded in 1905 to help spread 
the spirit of conservation across the land.'' The Forest Service 
website, however, explains:

    Unlike the national parks, which were created primarily to preserve 
natural beauty and unique outdoor recreation opportunities, the 
founders of early national forests envisioned them as working forests 
with multiple objectives. The Organic Administration Act of 1897, under 
which most national forests were established, states: `No national 
forest shall be established, except to improve and protect the forest 
within the boundaries, or for the purpose of securing favorable 
conditions of water flows, and to furnish a continuous supply of timber 
for the use and necessities of citizens of the United States . . . '
    Why did the Forest Service use its budget justification to describe 
its historic mission as one of spreading the ``spirit of 
conservation,'' when that description (according to the Forest Service 
website) more appropriately describes the historic mission of the 
National Parks Service?
    Answer. The phrase ``spread the spirit of conservation,'' was meant 
to communicate the Forest Service's multiple use mandate. 
Traditionally, the term ``conservation'' has referred to sustainable 
use of resources and has been associated with the Forest Service, 
whereas the term ``preservation'' has encompassed the Park Service 
mission of preserving natural beauty and unique outdoor recreational 
activities.
    Question 12. Has the Forest Service's core mission shifted to land 
management and conservation in way that more accurately aligns it with 
the mission of agencies under the Department of the Interior, as 
opposed to the Department of Agriculture?
    Answer. The Forest Service mission is to sustain the health, 
diversity, and productivity of the Nation's forests and grasslands to 
meet the needs of present and future generations and has not changed. 
As it has for over a century, the Forest Service can successfully 
fulfill its multi-faceted mission housed within the Department of 
Agriculture (USDA).
    As the Nation's leading forestry organization, we also serve 
Americans in other ways that are in alignment with the USDA mission-
which is to provide leadership on food, agriculture, natural resources, 
rural development, nutrition, and related issues based on sound public 
policy, the best available science, and efficient management. The USDA 
Strategic Plan FY 2010-2015 provides important information on how USDA 
and the Forest Service work together and play a pivotal role in 
protecting and restoring America's forests, farms, ranches, and 
grasslands while making them more resilient to threats and enhancing 
natural resources. As public land stewards, USDA and the Forest Service 
work together to conserve and restore 193 million acres of national 
forests and grasslands in the National Forest System.
    Question 13. The Forest Service's lack of preparation for 
sequestration this year has caused considerable unrest in rural 
communities that face penalties and interest payments for failing to 
return payments to the Forest Service. How does the Forest Service 
intend to work with local communities to address this situation?
    Answer. The Forest Service is committed to assisting rural 
communities. To fulfill our commitment, payments to States were made in 
early January 2013 while the sequestration debate continued in 
Congress. In March of 2013, to comply with the law, we were required to 
ask each State to return the sequestered amount mandated by the Budget 
Control Act. We understand the hardship created by the impact of 
sequestration on payments under the Secure Rural Schools Act. States 
have the option to either pay back the sequestered amounts from their 
Title I and Title III money, or reduce the Title II allocations by the 
requisite amount, provided funds are available in Title II. We 
sincerely regret having to take this action but we have no other 
options under sequestration.

    The Office of General Counsel (OGC) issued its opinion on costs to 
be included in cancellation ceiling determinations for multiyear 
stewardship contracts on March 1, 2011. Key points from the OGC opinion 
are below.

          1) Cancellation ceiling costs are for nonrecurring costs, 
        such as start-up costs.
          2) Contractor costs of providing services under a multiyear 
        stewardship contract should only be a factor in the 
        cancellation ceiling determination if the costs are allocable 
        to the contract. Under the Federal Acquisition Regulation (FAR) 
        31.201-4, ``A cost is allocable if it is assignable to one or 
        more cost objectives on the basis of relative benefit received 
        or other equitable relationship.'' For qualifying contractor 
        investments, the costs may be included in the cancellation 
        charge only to the extent that the multiyear stewardship 
        contract benefits.
          3) When the Agency sells forest products and requires 
        removal, but does not specify where the material is to be 
        removed or what manufacturing is to be done, then the post-
        removal manufacturing costs are not applicable to the items or 
        services to be furnished under the multiyear contract 
        requirements. For this reason, those cost s would not be 
        included in the cancellation ceiling calculation.
          4) The Agency is not liable under FAR 52.217-2, Cancellation 
        under Multiyear Contracts, if it terminates a multiyear 
        contract for reasons other than lack of funding. Instead, it is 
        liable under the termination for the convenience clause.
          5) The costs to be included in any cancellation charge for an 
        Integrated Resource Service Contract (IRSC) are limited to 
        those contract required costs the contractor reasonably must 
        incur to provide a service to the Forest Service. If a cost 
        cannot be tied to a service contract requirement, it may not be 
        included in any cancellation charge and, therefore, should not 
        be a factor in the cancellation ceiling determination.
          6) Examples of costs to be included in a cancellation ceiling 
        because the work is related to a service being performed 
        include but are not limited to the following.

                  i) Logging equipment to the extent the costs are 
                allocable to the contract.
                  ii) Slash treatment equipment, such as a mastication 
                machine, to the extent the costs are allocable to the 
                contract.

          7) Examples of costs not to be included in a cancellation 
        ceiling because the work is not related to the service being 
        performed include but are not limited to the following.

                  i) Log trucks or chip vans if the contract does not 
                require products to be removed from national forest 
                land.
                  ii) Facilities to manufacture the products removed 
                since manufacturing is not a service provided under the 
                contract.

          8) The determination of allocable costs will be specific to 
        each contract.
    The above items should be taken into consideration for contract 
development and cancellation ceiling determinations. If you have any 
questions regarding cancellation under multiyear contracts, contact Ron 
Schilz, Procurement Analyst, Policy Branch, Acquisition Management.

    Question 14. To avoid repeating this next year, how does the Forest 
Service intend to address sequestration in upcoming years?
    Answer. We will continue to work to implement the requirements of 
sequestration and mitigate impacts on rural communities and public 
interests as much as possible, while complying with the laws passed by 
Congress.
    Question 15. The Forest Service's recent report, ``Increasing the 
Pace of Restoration and Job Creation on Our National Forests,'' set a 
FY14 timber target of 3 billion board feet. Chief Tidwell similarly 
supported the 3 billion board feet goal. Nevertheless, the budget 
justification proposes a timber target of 2.38 billion board feet. If 
the report and the Forest Chief support a 3 billion board feet target, 
why does the budget justification include a reduced amount?
    Answer. As outlined in the Forest Service report ``Increasing the 
Pace of Restoration and Job Creation on Our National Forests,'' the 
agency intended to take action over the next three years to increase 
the number of acres being mechanically treated by 20 percent. The 
agency was on track selling over 2.6 billion board feet of timber in FY 
2012.
    Approximately 51 percent of the funding for Forest Products is 
directed at preparing, offering, and selling new timber sales, which is 
the basis for the output of timber volume sold. The remaining funding 
pays for administering the harvest of timber sales already under 
contract and handling walk-in business from citizens for firewood 
permits and special forest products. The agency is contractually 
obligated to administer existing contracts and we will continue to 
provide personal use permits for people to have access to firewood and 
other special forest products. Thus, a percent reduction in the total 
Forest Products program is actually a 10 percent reduction in the funds 
available to prepare and sell new timber volume. As a result of the 
national effort to reduce Federal budget levels, the agency's funding 
request for restoration and timber harvest has been reduced from the FY 
2013 President's Budget level. As a result, the restoration funding 
level proposed for FY 2014 is estimated to yield 2.4 billion board feet 
of timber volume sold.
    Question 16. In the budget justification, the Forest Service 
proposed permanently extending stewardship contracting authority, which 
expires at the end of FY13. This program has proven successful in 
Arizona, and a number of constituents have expressed support in favor 
of reauthorizing this authority. There are, however, a couple of minor 
modifications that could improve the program. One of these is achieving 
parity between the fire liability provisions in timber contracts and 
Integrated Resource Service Contracts (IRSC) for stewardship. Please 
provide the statutory or regulatory citation for the timber contract 
provision. Why is there a distinction between the timber contract 
provision and the IRSC stewardship contract provision?
    Answer. The Integrated Resource Timber Contract (IRTC) is based on 
the provisions of the Forest Service timber sale contract, which was 
verified through the National Forest Management Act. The Integrated 
Resource Service Contract (IRSC) is tiered to the Federal Acquisition 
Regulations (FAR) as expressed through the Forest Service's service 
contracts (FAR 452.236-77, Emergency Response). Thus, the IRTC follows 
the fire liability procedures in the agency's timber sale contract, and 
the IRSC follows the fire liability clause included in the agency's 
service contracts.
    Question 17. What efforts has the Forest Service undertaken to make 
the fire liability provision in the IRSC stewardship contract 
commensurate with the timber contract provision? If none, please 
explain why it has not undertaken those efforts
    Answer. As explained above, the fire liability provisions of the 
IRTC and IRSC are the same as the contracts from which they tier. 
Therefore, the IRTC follows the fire liability procedures in the 
agency's timber sale contract and the IRSC follows the fire liability 
clause included in the agency's service contracts. We are aware that 
the difference between the IRTC and IRSC is a concern for potential 
contractors and are further exploring this concern.
    Question 18. In light of the Forest Service's increasing reliance 
on stewardship contracts instead of timber sale contracts, what efforts 
has the Forest Service undertaken to establish a local cost share from 
stewardship contract receipts? If none, please explain why it has not 
undertaken those efforts.
    Answer. Forest land managed through timber harvest will continue to 
play a critical role in restoration, maintenance, and enhancement of 
national forests and grasslands. Both the traditional timber sale 
contract and stewardship contracts will serve a vital role where 
appropriate. While counties do not receive payments from a stewardship 
contract, the receipts generated from the timber under a stewardship 
contract pay for restoration activities in the sale area, generating 
more work on the ground with an increased opportunity for local jobs.
    Question 19. In March 2011, the Office of General Counsel issued an 
opinion on the costs that should be included when the Forest Service 
makes a cancellation ceiling determination. Can you provide a copy of 
that opinion?
    Answer. Agency legal opinions are privileged information. However, 
we have attached a copy of the October 13, 2011, letter sent to the 
Regional Foresters that outlines the key points of the OGC opinion and 
clarifies the costs that should be included in a cancellation ceiling 
determination.
    Question 20. What efforts has the Forest Service undertaken to 
reduce its upfront costs for cancellation ceilings? If none, please 
explain why it has not undertaken those efforts.
    Answer. The Forest Service issued a letter to the Regional 
Foresters on October 13, 2011, that clarifies the costs that should be 
included in the cancellation ceiling determination for stewardship 
contracts. A copy of this letter is attached.
    Question 21. In his testimony, Chief Tidwell explained that the 
Forest Service is attempting to cut operating costs ``by streamlining 
[the Forest Service's] environmental review process under the National 
Environmental Policy Act.'' Specifically, what is the Forest Service 
doing to streamline the NEPA review process?
    Answer. The Forest Service is continuously improving the National 
Environmental Policy Act (NEPA) process. Current efforts include 
technology applications to speed public comment analysis, project file 
management, publishing environmental documents to the internet, and 
managing mailing lists. We have focused our NEPA training on key skills 
for managing the process, including team management and decision 
making. We have also established a learning network on adaptive 
management, focused environmental assessments, and iterative 
environmental impact statements (EIS) to examine the effectiveness of 
larger-scale NEPA analysis existing policies and practices. As an 
example, recently an EIS was prepared on the Black Hills National 
Forest to make a decision on treating bark beetles on over 250,000 
acres (three to six times larger than projects covered by typical EISs 
on the Black Hills National Forest). Lessons learned are being shared 
throughout the agency.
    The White House Council on Environmental Quality recognized Forest 
Service efforts to modernize the NEPA by selecting Forest Service 
proposals for two of their five NEPA Pilot projects that employ 
innovative approaches to completing environmental reviews more 
efficiently and effectively. Forest Service electronic management of 
NEPA and two landscape level projects, Four Forest Restoration 
Initiative, and 5-Mile Bell, were chosen as examples to share with NEPA 
practitioners in other Federal agencies.
    Question 22. Do those streamlining efforts extend to grazing 
permits, timber contracts, and stewardship contracts?
    Answer. Yes, the Forest Service is continuously improving the 
National Environmental Policy Act process for all of our programs.
    Question 23. How does the Forest Service plan on working with or 
otherwise collaborating with the Ecological Restoration Institute 
during FY14?
    Answer. The Forest Service will continue to work with the 
Ecological Restoration Institutes (ERI) to promote the use of adaptive 
ecosystem management to reduce the risk of wildfires and restore the 
health of fire adapted ecosystems of the interior West. The ERI will 
continue to (1) develop, research and promote restoration-based 
hazardous fuel reduction treatments to reduce the risk of severe 
wildfires and improve the health of dry forest and woodland ecosystems 
in the interior West, (2) synthesize and adapt scientific findings from 
conventional research to implement restoration-based hazardous fuel 
reduction treatments on a landscape scale using an adaptive ecosystem 
management framework, (3) transfer to affected entities any scientific 
and interdisciplinary knowledge about restoration-based hazardous fuel 
reduction treatments, (4) assist affected entities with the design of 
adaptive management approaches (including monitoring) for the 
implementation of restoration-based hazardous fuel reduction 
treatments, and (5) provide peer-reviewed annual reports.
    Question 24. Under the National Defense Authorization Act for 2013 
(``NDAA''), Congress authorized the transfer of excess U.S. Air Force 
(USAF) aircraft to the Forest Service for wildfire fighting activities 
(Section 1090, P.L. 112-239). The legislation gives Forest Service the 
opportunity to recapitalize a portion of the government-owned fleet 
without the added cost of purchasing new aircraft. In March 2013, USAF 
identified the C-27J Spartan as a platform ideal for divestment. What 
steps is Forest Service taking to utilize the transfer authority in 
NDAA, and is the Forest Service working with DoD in the development of 
the USAF C-27J Divestment Plan which could be released as early as 
June?
    Answer. The Department of Agriculture has sent a letter to the 
Secretary of Defense stating that the Forest Service would accept these 
aircraft and that they are acceptable for the firefighting mission. The 
Forest Service is in discussions with the Department of Defense 
regarding the divesture of the C-27Js. The Forest Service has a working 
group established to develop the needed contracts, establish program 
management, and work with the Department of Defense, the manufacturer, 
and other organizations necessary for C-27J transfer, conversion, and 
operation.
    Question 25. How does the Forest Service's budget proposal support 
the Four Forest Restoration Initiative through the Collaborative Forest 
Landscape Restoration program?
    Answer. The President's FY 2014 Budget requests $39,851,000 for the 
Collaborative Forest Landscape Restoration Program (CFLRP). The 
proposed FY 2014 President's Budget will continue to support 
implementation of the 20 CFLRP projects selected in FY 2010 and FY 
2012, which includes the Four Forest Restoration Initiative.
    Question 26. What is the status of the Four Forest Restoration 
Initiative?
    Answer. The Four Forest Restoration Initiative is located on the 
Apache-Sitgreaves, Coconino, Kaibab, and Tonto National Forests. In May 
2012, the Forest Service signed the largest stewardship contract in its 
history. Under the contract, Pioneer Forest Products will thin 300,000 
acres in the next 10 years. The Forest Service will receive about $22 
per acre, exchanging the value of the trees for the work. The first 
task order under that contract was issued in early April of 2013.
    In addition, the project published a draft environmental impact 
statement (DEIS) on March 29, 2013. It proposes habitat enhancement, 
thinning, and prescribed burning on one million acres of the Kaibab and 
Coconino national forests in the next 20 years. The DEIS is currently 
under a 60-day public comment period.

                                    

      

</pre></body></html>
